<html>
<title> - OVERSIGHT OF THE NATIONAL SCIENCE FOUNDATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                            OVERSIGHT OF THE
                      NATIONAL SCIENCE FOUNDATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2008

                               __________

                           Serial No. 110-77

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science


                     U.S. GOVERNMENT PRINTING OFFICE
40-817 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


                            C O N T E N T S

                           February 26, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    22

Dr. Steven C. Beering, Chairman, National Science Board
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    30

Discussion.......................................................    30

              Appendix: Answers to Post-Hearing Questions

Dr. Arden L. Bement, Jr., Director, National Science Foundation..    50

Dr. Steven C. Beering, Chairman, National Science Board..........    64


              OVERSIGHT OF THE NATIONAL SCIENCE FOUNDATION

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2008

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                            Oversight of the

                      National Science Foundation

                       tuesday, february 26, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, February 26, 2008, the Subcommittee on Research and 
Science Education of the House Committee on Science and Technology will 
hold a hearing to receive testimony from the Director of the National 
Science Foundation (NSF) and the Chair of the National Science Board 
(NSB) regarding NSF's fiscal year (FY) 2009 budget request and related 
policy issues.

2. Witnesses

        <bullet>  Dr. Arden L. Bement, Jr., Director of the National 
        Science Foundation.

        <bullet>  Dr. Steven C. Beering, Chairman of the National 
        Science Board.

3. Overarching Questions

        <bullet>  How does the FY 2009 budget request address the NSF 
        programs authorized in the America COMPETES Act, including math 
        and science education activities? How is NSF responding to the 
        policy directives in COMPETES, including those regarding 
        mentoring and ethics training for young scientists?

        <bullet>  On what basis should NSF make decisions about how to 
        allocate budgets across education programs, including K-12, 
        undergraduate, and graduate programs? How will NSF's new 
        teacher education initiative balance priorities across the 
        programs that support K-12 education? Is there an appropriate 
        balance among the different modes of support for graduate 
        students (fellowships, traineeships, and research 
        assistantships)?

        <bullet>  The American Competitiveness Initiative (ACI) set a 
        10-year doubling path for the physical sciences, engineering 
        and computer sciences, which had been flat-funded for several 
        years. What is NSF doing to ensure that the social, behavioral, 
        economic and biological sciences are appropriately integrated 
        and sufficiently funded under the often multi-disciplinary 
        research initiatives supported under ACI?

4. Summary of NSF FY 2009 Budget Request

    The National Science Foundation is the primary source of federal 
funding for non-medical basic research conducted at colleges and 
universities and serves as a catalyst for science, technology, 
engineering, and mathematics (STEM) education reform at all levels. NSF 
is one of the research agencies that the President, in his 2006 State 
of the Union Address, proposed to double over ten years (beginning in 
FY 2007) as part of the American Competitive Initiative (ACI). The 
America COMPETES Act (P.L. 110-69) called for an even more rapid, 
seven-year doubling path for NSF and responded to a critical shortage 
of well-trained K-12 STEM teachers by increasing funding for two 
flagship NSF teacher education programs: The Noyce Teacher Scholarship 
Program and the Math and Science Partnerships Program (MSP).
    Both ACI and COMPETES have yet to be realized. The FY 2007 
Appropriations CR resulted in only a 4.2 percent increase for NSF in 
the first year of ACI--a ten year doubling requires approximately seven 
percent/year growth. The FY 2008 omnibus appropriations bill provides 
$6.032 billion,\1\ a 2.5 percent increase over FY 2007. The 
Administration's FY 2009 request for NSF is $6.854 billion, $822 
million (13.6 percent) above the FY 2008 estimate, reflecting a 
determination to keep NSF on the 10-year doubling path proposed under 
ACI. (COMPETES authorized $7.326 billion for FY 2009, $472 million more 
than the request.) However, the Administration provided only a nominal 
increase for MSP and reduced the Noyce Program below the FY 2008 
omnibus appropriations level.
---------------------------------------------------------------------------
    \1\ The FY 2008 estimate is $33 million below the appropriated 
level due to a rescission required by the Appropriators in the FY 2008 
omnibus bill.

Research and Related Activities (R&RA)
    Scientific research programs and research facilities (which 
comprise the R&RA account) receive a $773 million (16 percent) increase 
from FY 2008. In keeping with the Administration's emphasis on the 
mathematical and physical sciences, engineering and computer sciences 
under ACI, those directorates, in addition to cyberinfrastructure, each 
receive an approximately 20 percent increase over FY 2008, while the 
biological sciences (+10.3 percent) and social, behavioral and economic 
sciences (+8.5 percent) receive more modest increases. The COMPETES Act 
specifically called on NSF not to disinvest in the biological and 
social sciences over the long-term, but did not assume that all fields 
would receive equal increases each year.
    NSF's contribution to the multi-agency National Nanotechnology 
Initiative (NNI) increases by only $8 million (2.1 percent) to $397 
million, $30.6 million of which is directed toward research on the 
environmental, health and safety aspects of nanotechnology. The 
Committee will be taking up a reauthorization of the NNI this spring. 
NSF's contribution to another multi-agency program, the Networking and 
Information Technology R&D Program (NITRD), increases by $159 million 
(17 percent) to $1.09 billion. The entire budgets of both the Computer 
Sciences and Cyberinfrastructure directorates are counted toward the 
NITRD total.
    As part of the FY 2009 request, NSF is launching three new cross-
Foundation initiatives: Science and Engineering Beyond Moore's Law ($20 
million), Adaptive Systems Technology ($15 million) and Dynamics of 
Water Processes in the Environment ($10 million). An initiative 
launched in FY 2008, Cyber-enabled Discovery and Innovation (CDI), will 
be doubled to $100 million. All of these initiatives repackage existing 
research under new headings and it is unclear to what extent they 
create new research directions or provide more money for existing 
research. CDI and S&E Beyond Moore's Law are both captured within the 
NITRD portfolio.
    The COMPETES Act put special emphasis on increasing support for 
young investigators, whose funding success rates sit about 10 percent 
lower than more established investigators. The Administration request 
includes $182 million (+$14 million) for CAREER grants, less than $2 
million below the amount authorized in COMPETES. The Act also created a 
new Pilot Program for Young Investigators to help provide seed funding 
to first time principal investigators who, despite being recognized as 
outstanding, are still disadvantaged by not having a track record of 
previous funding. Based on staff conversations with NSF officials, NSF 
is taking this new program seriously and is in the process of deciding 
how best to implement it.
    Since FY 2006, under a Memorandum of Agreement, NSF has been 
responsible for reimbursing the U.S. Coast Guard for the costs of the 
icebreakers that support scientific research in the Polar regions. The 
request for FY 2009 is $54 million, a reduction of $3 million under a 
recent agreement in which NSF is no longer supporting the Polar Star in 
caretaker (i.e., mothballed) status. NSF will also continue to purchase 
back-up ice-breaking services on the open market at a cost of 
approximately $9 million in FY 2009.

Major Research Equipment and Facilities Construction (MREFC)
    The MREFC activity funds the construction of large research 
facilities, such as telescopes and research ships. Funding for the 
design, operation and management of these major user facilities is 
included in the R&RA budget.
    The fiscal year 2009 MREFC budget is down by 33 percent to $147 
million, in small part because of projects that were completed in FY 
2008 and in much larger part because three design-stage projects: The 
Alaska Region Research Vessel (ARRV), the National Ecological 
Observatory Network (NEON) and the Ocean Observatories Initiative (OOI) 
are on hold pending the establishment of rigorous cost and schedule 
baselines. As recently as last year, NSF put place-holders for these 
projects in MREFC, but they have since established a ``zero-tolerance'' 
policy for cost-overruns. The only new project receiving funding in FY 
2009 is the Advanced Technology Solar Telescope (ATST), which will 
receive $2.5 million for late-stage design work. This is the first time 
that any design funds are requested from the MREFC Account, and NSF is 
reviewing the policy for funding preconstruction design work in 
general, as requested in COMPETES. In another break with prior 
practice, the MREFC budget request does not include out-year funding 
estimates for ATST and the newly available 2008 Facility Plan\2\ does 
not include any horizon or ``readiness stage'' projects.
---------------------------------------------------------------------------
    \2\ http://www.nsf.gov/pubs/2008/nsf0824/nsf0824.pdf

Education and Human Resources (EHR)
    EHR funds most of NSF's activities that support K-12 STEM education 
and the majority of activities that support undergraduate STEM 
education. EHR also funds most of NSF's graduate fellowship and 
traineeship programs. The FY 2009 request for EHR is $790.41 million, 
an increase of $64.81 million (8.9 percent) over FY 2008, but $205 
million short of the level authorized in COMPETES. The single biggest 
increase of $28.6 million (32.5 percent) goes to the Graduate Research 
Fellowship program. Overall, programs that support K-12 education, 
including the Noyce Program, MSP, and Discovery Research K-12, increase 
by only 4.6 percent, half of the total increase for EHR. NSF programs 
to broaden participation, which includes programs in both R&RA and EHR, 
increase by only $18.8 million (2.9 percent).

K-16 Programs
    The Administration flat-funded or provided only meager increases 
for a number of K-16 education programs slated for increases in 
COMPETES, including the Noyce Program, MSP, the Advanced Technological 
Education Program (ATE), and the STEM Talent Expansion Program. 
Moreover, the Administration intends to fund the Noyce Program below 
the appropriated level of $15 million in FY 2008. The rationale given 
for flat-funding these programs (with the exception of MSP) is that 
they have not yet undergone the rigorous evaluation required under the 
Administration's Academic Competitiveness Council (ACC) process. (For 
background on ACC, see the charter from the June 6, 2007 Research 
Subcommittee hearing on Federal STEM Education Programs.) Discovery 
Research K-12, which supports applied research aimed at improving STEM 
education at the K-12 level, fares the best of the three K-12 programs, 
with an $8.5 million (8.5 percent) increase.

Graduate Research and Education (R&RA and EHR)
    The two major NSF programs that support graduate students, the 
Graduate Research Fellowships Program (GRF) and the Integrative 
Graduate Education and Research and Training Program (IGERT) take funds 
from both R&RA and EHR. Both of these programs received special 
attention in the COMPETES act for their role in nurturing the best and 
brightest science and engineering students. While GRF is important for 
the independence it affords graduate students to choose a research 
advisor who might not otherwise be able to support another student, 
IGERT is also an extremely well regarded and effective program that by 
design supports cutting-edge interdisciplinary science through its 
support for graduate students. In the FY 2009 request, NSF increases 
GRF by 30 percent to $125 million while flat-funding IGERT at $64 
million. The reason for this unbalanced treatment of two equally 
important and effective graduate student programs is unclear. Another 
large program that NSF lists under graduate education is the Graduate 
Teaching Fellows in K-12 Education (GK-12).

Broadening Participation
    The single biggest increase for programs to broaden participation 
goes to the Centers of Research Excellence in Science and Technology 
Program (+ $5.5 million or 22 percent), which supports research and 
education infrastructure at minority-serving institutions. Three other 
programs designed to increase participation by minority students, HBCU-
UP, LSAMP and TCUP, will receive a combined $3.5 million increase after 
having received a $10.5 million increase to $83.4 million in FY 2008. 
The ADVANCE program, which seeks to increase the numbers of tenure-
track women faculty in science and engineering disciplines, will 
receive a 2.5 percent decrease to $20.8 million after having received a 
25 percent increase in FY 2008.

Agency Operations and Award Management
    This NSF account funds the internal operations of NSF. The FY 2009 
request provides an increase of $23.3 million (8.3 percent) over FY 
2008. AOAM was the one account that was nearly fully funded in the FY 
2008 omnibus appropriations bill. Dr. Bement made it clear to Congress 
that AOAM was his number one priority for funding in FY 2008. The NSF 
workforce has been under increasing pressure as research budgets 
increased, and the electronic system used to receive and process grant 
applications is undergoing an upgrade in preparation for implementation 
across the federal research enterprise.

5. Additional Policy Issues Addressed in COMPETES

    The COMPETES Act contained a number of policy directives and report 
requests not addressed in the FY 2009 budget request:

        <bullet>  Sec. 7007 requires an NSB report, due in August, 
        evaluating the role of NSF in supporting interdisciplinary 
        research. The key issues are whether NSF has a clear policy for 
        the review of unsolicited interdisciplinary proposals, and 
        whether the research community is sufficiently informed about 
        where to submit such proposals.

        <bullet>  Sec. 7008 requires that all NSF grant applications 
        that include funding to support post-doctoral researchers 
        include a description of the mentoring activities that will be 
        provided for such individuals.\3\
---------------------------------------------------------------------------
    \3\ The widespread problem being addressed through this provision 
is addressed in detail in a 2000 (but still relevant) report from the 
National Academies: Enhancing the Post-doctoral Experience for 
Scientists and Engineers. http://www.nap.edu/
catalog.php?record<INF>-</INF>id=9831

        <bullet>  Sec. 7009 requires universities funded by NSF to 
        provide appropriate training and oversight in the responsible 
        and ethical conduct of research to students and trainees at all 
        levels, including post-doctoral researchers. The Manager's 
        Statement accompanying COMPETES directed NSF to provide written 
        guidelines to universities on what constitutes appropriate 
---------------------------------------------------------------------------
        training.

        <bullet>  Sec. 7010 requires that NSF make summaries of 
        research results publicly available in a timely manner. NSF was 
        already moving in this direction before COMPETES.

        <bullet>  Sec. 7011 requires NSF to enforce its policy 
        regarding the sharing of research results by making any 
        researcher who fails to comply ineligible for future funding.

        <bullet>  Sec. 7013 required NSB to evaluate NSF's policy on 
        cost-sharing. The Board has already responded with a report 
        presented to NSF in February.\4\ In short, NSB recommended 
        reinstating cost-sharing by industry for certain Centers 
        programs with significant industry participation, as well as 
        cost-sharing by states under the EPSCoR program. They also 
        issued a series of recommendations regarding management and 
        oversight of cost-shared grants. NSF is currently reviewing 
        NSB's recommendations.
---------------------------------------------------------------------------
    \4\ http://www.nsf.gov/nsb/publications/2008/
rprt<INF>-</INF>congress<INF>-</INF>cs<INF>-</INF>policy.pdf

        <bullet>  Sec. 7014 required NSB to review NSF's policies for 
        pre-construction funding and maintenance and operation costs of 
        MREFC projects. The Board also completed this report in 
        February (#NSB-08-15) and it should be online shortly. The gist 
        of the recommendations is that NSB should be more integrated 
        into the large facilities planning process and that MREFC funds 
        should be available for late-stage design activities. NSF is 
---------------------------------------------------------------------------
        currently reviewing the Board's recommendations.

        <bullet>  Sec. 7018 requires NSF to consider the degree to 
        which grant proposals address critical national science and 
        innovation needs.

        <bullet>  Sec. 7020 requires a plan, due this month, to ensure 
        broadband access for all institutions of higher education 
        participating in NSF programs that require high-speed 
        networking.

        <bullet>  Sec. 7022 requires a report, due in August, on the 
        impact and scope of the ``Broader Impacts'' grant review 
        criterion used by NSF.

        <bullet>  Sec. 7032 requires a National Academies report, due 
        in August, on barriers to and strategies for greater diversity 
        in STEM fields.

        <bullet>  Sec. 7033 authorizes NSF to establish a Hispanic-
        Serving Institutions Undergraduate Program similar to a program 
        for Historically Black Colleges and Universities.

        <bullet>  Sec. 7034 authorizes a new Professional Science 
        Masters program at NSF.

6. Questions for Witnesses

Dr. Bement

        <bullet>  How does the FY 2009 budget request address the NSF 
        programs authorized in the America COMPETES Act, including math 
        and science education activities?

        <bullet>  How has the planning and budgeting process changed 
        for major research facilities? Why doesn't the FY 2009 MREFC 
        budget request contain any out-year budget requests for the FY 
        2009 new start, the Advanced Technology Solar Telescope? 
        Furthermore, there are no horizon projects listed in the 2008 
        Facility Plan. Are there any projects in readiness stage for FY 
        2010? If not, when can we expect to see a proposal for FY 2010 
        new-starts?

        <bullet>  Please elaborate on the three new cross-Foundation 
        initiatives for FY 2009: Science and Engineering Beyond Moore's 
        Law, Adaptive Systems Technology, and Dynamics of Water 
        Processes in the Environment. How did these initiatives come 
        about? To what extent do they repackage existing efforts? What 
        new research directions are being funded under these 
        initiatives?

        <bullet>  What is the role of NSF in promoting international 
        science cooperation? To what extent do you coordinate your 
        international efforts with the Department of State or other 
        federal agencies? In particular, what role do you have in 
        promoting scientific exchange with scientists in countries 
        whose research infrastructure lags behind that of United 
        States?

Dr. Beering

        <bullet>  How has the planning and budgeting process changed 
        for major research facilities? How will the role of the Board 
        change in this process?

        <bullet>  What is the appropriate role of NSF in promoting 
        international science cooperation? How should NSF coordinate 
        its international efforts with the Department of State and 
        other federal agencies? In particular, what role does or should 
        NSF have in promoting scientific exchange with scientists in 
        countries whose research infrastructure lags behind that of 
        United States?

        <bullet>  Is the Board satisfied with the current funding level 
        for the Foundation's education programs and with the priorities 
        among categories of programs (K-12, undergraduate, and 
        graduate)? On what basis should NSF make decisions about how to 
        allocate budgets across education programs? In particular:

                  What are the highest priority NSF programs that 
                address K-12 STEM education, and in particular, please 
                comment on whether the Board has a view on the adequacy 
                of the FY09 budget request for the Robert Noyce Teacher 
                Scholarship Program and the Math and Science 
                Partnerships?

                  Does the Board believe there is an appropriate 
                balance among the different modes of support for 
                graduate students (fellowships, traineeships, and 
                research assistantships)?
                <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                
    Chairman Baird. Our hearing will come to order now and good 
morning. Welcome to this Research and Science Education 
Subcommittee hearing on the National Science Foundation's 
fiscal year 2009 budget request and related policy issues.
    I am happy that despite the disappointment of the fiscal 
year 2008 Omnibus Appropriations Bill, the Administration 
remains determined to keep NSF on a doubling path, something 
this committee has long and strongly advocated for. The strong 
budget request for basic research at NSF is something that this 
committee commends and fully supports and will work to advocate 
with our colleagues.
    I am happy to see that the education programs at NSF are 
getting an increase, however, and this is a sentiment I believe 
is shared by the overwhelming majority of my Committee 
colleagues on both sides of the aisle, I am once again dismayed 
at the treatment of the K through 12 education in the budget 
request.
    The top recommendation of the National Academies of 
Science's Gathering Storm report was to place teachers who have 
strong content knowledge and effective teaching skills in math 
and science classrooms across America. The report cited a 10-
year old University of Texas UTeach Program as an example of 
best practices for STEM teacher education.
    Based on that success UTeach has already been taken as a 
model by the State of California, as well as the private 
sector. The COMPETES Act, passed by this committee and the 
House last year, used the Academy's recommendations and UTeach 
as the basis for restructuring NSF's Robert Noyce Teacher 
Scholarship Program. It set out a funding trajectory that would 
enable the program to reach the goal of 10,000 new STEM 
teachers per year.
    I am disappointed that the fiscal year 2009 budget request 
for Noyce not only fails to reach the $103 million authorized 
in COMPETES Act, but is actually below the fiscal year 2008 
appropriations level.
    I am also interested in learning more about NSF's decision 
to apply all of the increases in Graduate Research and 
Education to the Graduate Research Fellowship Program rather 
than the Integrative Graduate Education and Research Training 
Program, since IGERT is also an extremely well-regarded and 
effective program.
    Beyond education, I would like to talk about the proposed 
changes to the major research equipment and facilities 
construction budget, as well as some changes proposed with 
respect to the icebreaker fleet.
    Finally, as a social scientist, I also want to say a word 
about the social and behavioral sciences. While I understand 
that not all fields will get an equal increase every year, I 
want to reiterate the importance of social sciences to all of 
the major challenges our nation is facing, including energy, 
water, health, national security, and competitiveness. 
Parenthetically I would mention that Dr. Marburger was here 
last, two weeks ago, and underscored himself the importance of 
social science.
    I am interested in hearing from you today the justification 
for the budget request for social, behavioral, and economics 
directorate and to what extent, if any, the social sciences are 
integrated into NSF's major research initiatives.
    Finally, let me end on a positive note. I was pleased with 
the request for a significant increase for the Office of 
International Science and Engineering, and I look forward to 
Dr. Bement's participation in an upcoming hearing which will 
explore the role of federal agencies, including NSF, in 
supporting international science and engineering cooperation.
    I thank our outstanding witnesses, first of all, for your 
great service to the country in the name of science, and also 
for being here with us today.
    And now it is my pleasure to recognize my dear friend and 
colleague, Dr. Vern Ehlers, for an opening statement. Dr. 
Ehlers.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning. Welcome to this Research and Science Education 
Subcommittee hearing on the National Science Foundation's fiscal year 
2009 budget request and related policy issues.
    I am happy that, despite the disappointment of the Fiscal Year 2008 
omnibus appropriations bill, the Administration remains determined to 
keep NSF on a doubling-path. The strong budget request for basic 
research at NSF is something that this committee commends and supports.
    And I am happy to see that the education programs at NSF are 
getting an increase. However--and this is a sentiment shared by the 
overwhelming majority of my Committee colleagues on both sides of the 
aisle--I am once again dismayed at the treatment of K-12 education in 
the budget request.
    The top recommendation of the National Academies of Science's 
Gathering Storm report was to place teachers who have strong content 
knowledge and effective teaching skills in math and science classrooms 
across America. The report cited the 10-year old University of Texas 
UTeach program as an example of best practices for STEM teacher 
education. Based on its success, UTeach has already been taken as a 
model by the State of California as well as the private sector.
    The COMPETES Act used the Academies' recommendations and UTeach as 
the basis for restructuring NSF's Robert Noyce Teacher Scholarship 
program. It set out a funding trajectory that would enable to program 
to reach the goal of 10,000 new STEM teachers per year. I am 
disappointed that the Fiscal Year 2009 budget request for Noyce not 
only fails to reach the $103 million authorized in the COMPETES Act, 
but is also below the Fiscal Year 2008 appropriations level.
    I am also interested in learning more about NSF's decision to apply 
all of the increases in the graduate research and education to the 
Graduate Research Fellowship Program, rather than the Integrative 
Graduate Education and Research and Training (IGERT) Program since 
IGERT is also an extremely well-regarded and effective program.
    Beyond education, I would like to talk about the proposed changes 
to the Major Research Equipment and Facilities Construction budget, as 
well as some changes proposed with respect to the icebreaker fleet.
    Finally, as a social scientist, I also want to say a word about the 
social and behavioral sciences. While I understand that not all fields 
will get equal increases every year, I want to reiterate the importance 
of the social sciences to all of the major challenges our nation is 
facing, including energy, water, health, national security and 
competitiveness. I'm interested in hearing from you today the 
justification for the budget request for the Social, Behavioral and 
Economics directorate and to what extent, if any, the social sciences 
are integrated into NSF's major research initiatives.
    Finally, let me end on a positive note. I was pleased with the 
request for a significant increase for the Office of International 
Science and Engineering and I look forward to Dr. Bement's 
participation in an upcoming hearing during which we will explore the 
role of federal agencies, including NSF, in supporting international 
science and engineering cooperation.
    I thank you for being here today and I look forward to your 
testimony. I now recognize my colleague Dr. Ehlers for an opening 
statement.

    Mr. Ehlers. Thank you, Mr. Chairman. Welcome.
    In the fiscal year 2009 budget request, the Administration 
has requested increases for both the research and educational 
mission of the National Science Foundation. However, the 
proposed increases fall short of the authorizations provided in 
the COMPETES Act of 2007, which established a seven-year 
doubling path for the NSF. After a below-inflationary increase 
provided in fiscal year 2008, due to no fault of the witnesses 
or of those on the dais here, the NSF has fallen off the 
doubling path. With a 13 percent increase requested for the 
agency, coupled with less generous budgets for other agencies, 
some even within the same funding subcommittee, NSF is going to 
have to work hard to defend and justify the reasoning behind 
the substantial increase. In order to return to the doubling 
path in fiscal year 2009, I believe NSF should be funded at the 
level authorized by the COMPETES Act.
    Unfortunately, we know first hand what shortfalls means for 
NSF. For the remainder of fiscal year 2008, NSF must defer 
solicitations and facilities maintenance, will award 1,000 
fewer research grants, fund 230 fewer research fellows, and 
negatively impact more than 3,000 students and teachers. These 
are just a few of the known impacts of the unanticipated 
shortfall created by the fiscal year 2008 Omnibus. I am very 
concerned that federal apathy to NSF is encouraging young 
scientists to choose another career.
    Finally, while I recognize NSF has defended the successes 
of the Math and Science Partnerships, I am disappointed that 
only a $2.5 million increase is requested for this program. As 
reauthorized by the COMPETES Act, the Math and Science 
Partnership Program has the potential to make a great impact on 
science, technology, engineering, and math education in this 
country. This is simply not possible within its current budget.
    I look forward to hearing from our witnesses about the new 
initiatives proposed in the fiscal year 2009 budget, the 
thriving programs bearing consistent fruit, and how we can work 
together to implement the COMPETES Act.
    Now, let me add a personal note here, and that is I 
recognize that the objectives of the two witnesses are largely 
the same as the objectives of those of us sitting up here. We 
are a victim of forces beyond our immediate control, 
particularly the passage of the Omnibus Bill last year. And 
that is an issue that has to be addressed. I am very 
disappointed with the results of the Omnibus Bill. I vowed to 
vote against it no matter what was in it because I suspected 
mischief. This happened a few years ago the last time we passed 
an Omnibus Bill. NSF was one of the principle victims of that. 
I do not know what the reasons are for, in the appropriations 
process or within the committees within the House and the 
Senate, but I am afraid that NSF appears to be an easy victim 
to pilferage during an Omnibus appropriations process.
    And I will do all I can, and I suspect my colleagues here 
will join me, in saying we will never, ever support another 
Omnibus Bill. We will do whatever we can to fight it.
    I also have encouraged the White House and various members 
working in the White House, including the President, to, if 
another Omnibus is presented, to flatly reject it and tell the 
Appropriations Committees to go back and do their work the way 
they are supposed to do it.
    It is unconscionable to me that a small group of 
individuals succeed in destroying an excellent organization 
such as the National Science Foundation by arbitrarily cutting 
the funding without considering all the factors that go into 
the operation of the organization.
    So you have our sympathies. You are here defending the 
indefensible in the sense that the budget presented is based 
largely on what was passed last year, and you have our 
sympathies. We are with you. It is essential for us to work 
together to make certain that the funding increases and that we 
do not have another Omnibus Bill disaster this coming year.
    Thank you very much.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    In the fiscal year 2009 budget request, the Administration has 
requested increases for both the research and educational mission of 
the National Science Foundation. However, the proposed increases fall 
short of the authorizations provided in the COMPETES Act of 2007, which 
established a seven-year doubling path for the NSF. After a below-
inflationary increase provided in FY08, NSF has fallen off the doubling 
path. With a 13 percent increase requested for the agency coupled with 
less-generous budgets for other agencies, some even within the same 
funding subcommittee, NSF is going to have to work hard to defend and 
justify the reasoning behind the substantial increase. In order to 
return to the doubling path in FY09, I believe NSF should be funded at 
the level authorized by the COMPETES Act.
    Unfortunately, we know first-hand what shortfalls mean for NSF. For 
the remainder of FY08 NSF must defer solicitations and facilities 
maintenance, will award 1,000 fewer research grants, fund 230 fewer 
research fellows, and negatively impact more than 3,000 students and 
teachers. These are just a few of the known impacts of the 
unanticipated shortfall created by the FY08 omnibus. I am very 
concerned that federal apathy to NSF is encouraging young scientists is 
to choose another career.
    Finally, while I recognize NSF has defended the successes of the 
Math and Science Partnerships, I am disappointed that only a $2.5 
million increase is requested for this program. As reauthorized by the 
COMPETES Act, the MSP program has the potential to make a great impact 
on science, technology, engineering and math (STEM) education in this 
country. This is simply not possible with its current budget.
    I look forward to hearing from our witnesses about the new 
initiatives proposed in the FY09 budget, the thriving programs bearing 
consistent fruit, and how we can work together to implement the 
COMPETES Act.

    Chairman Baird. Dr. Ehlers, thanks for your comments and 
your passion in this. I share that, you know. It is--if we look 
at this budget and it is posing some substantial increases, but 
as we all know here, the budget that proposes increases without 
the weight of an Administration fighting to sustain those 
increases really won't mean anything down the road, and indeed, 
the result of the appropriations process and the Omnibus, which 
I also did not support, was because of an Administration 
mandate to reduce 20 some billion dollars out of that. Much of 
that cost, unfortunately, fell to NSF and some other agencies.
    So it is a nice thing to put forward a budget that calls 
for increases. It certainly beats the reverse. So we are happy 
about that, but in and of itself is not enough. And so we share 
the concern about that and the gentlemen here are not 
responsible for that. You worked very hard to put forward a 
sound budget, and we are grateful for that.
    I want to acknowledge the presence of Dr. McNerney and Dr. 
Lipinski. Thank you for joining us, gentlemen. As is the custom 
of the Committee, if there are any Members who wish to submit 
opening remarks for the record, we are happy to introduce 
those.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman. I want to also welcome Drs. Bement and 
Beering today to testify on the National Science Foundation budget 
plans for fiscal year 2009 and how those plans will fund programs in 
the America COMPETES Act, as well as current NSF initiatives.
    The National Science Foundation is our nation's premier supporter 
of research and development in the physical sciences. NSF also plays a 
key role in math and science education programs.
    Over the years, NSF has enabled under-represented and minority 
populations to attain degrees in these fields and to excel. I want to 
commend the foundation for this work.
    When the President signed the America COMPETES Act into law and 
expressed interest in investment into American competitiveness 
initiative programs, a new era began.
    NSF is now tasked with utilizing limited financial resources to 
support an expanded number and size of programs.
    Members of this committee are interested in a dialogue with you on 
how you will accomplish funding objectives, and we support your 
efforts.
    I would like for you to particularly keep the ``Broadening 
Participation'' programs in mind, like the Noyce Teacher Scholarship, 
and others that I will submit in my written testimony today and as 
additional budget ``Views and Estimates'' published by this committee.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Supplemental material: key NSF programs that broaden participation 
by under-represented groups.

        <bullet>  Science, Technology, Engineering and Math Talent 
        Expansion Program (STEP)

        <bullet>  Advanced Technology Education (ATE)

        <bullet>  Experimental Program to Stimulate Competitive 
        Research (EPSCoR)

        <bullet>  Partnerships for Access to Laboratory Science--Sec 
        7026 of COMPETES Act

        <bullet>  Hispanic-serving Institutions Undergraduate Program--
        Sec 7033 of COMPETES Act

        <bullet>  Faculty Early Career Development (CAREER) Program

        <bullet>  Informal Science Education (ISE)

        <bullet>  ADVANCE Women's Program

        <bullet>  Broadening Participation in Computing (BPC)

        <bullet>  Graduate Research Fellowships--Women in Engineering 
        and Computer Science

        <bullet>  Opportunities to Enhance Diversity in the Geosciences 
        (OEDG)

        <bullet>  Minority Post-Docs

        <bullet>  Graduate Research Diversity (GRD)--ENG

        <bullet>  Significant Opportunities in Atmospheric Research and 
        Science (SOARS)--GEO

    Chairman Baird. The Chair will now introduce our witnesses, 
and if ever there is a case where the introduction I am giving 
is understated, giving the distinguished careers of these two 
gentlemen, please forgive us. In the interest of hearing your 
wisdom we will keep the introductions brief.
    But Dr. Arden Bement is the Director of the National 
Science Foundation. Dr. Steven Beering is the Chairman of the 
National Science Board. Very brief introductions for some 
extraordinary careers.
    As our witnesses should know well from prior testimony 
here, spoken testimony is limited to five minutes, but that is 
really designed to hit the highlights and then we will have a 
good exchange. And always I want to invite, especially 
gentlemen such as yourselves, if there are things that we don't 
cover in our questions but you feel you want to elaborate on, 
please, this is a friendly process and feel free to elaborate 
on that.
    We will start our testimony with Dr. Bement. Thank you 
again.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Yes, Mr. Chairman. If I may before reading my 
prepared remarks, I want to reflect on your opening remarks.
    In spite of the '08 Omnibus Bill I want to express on 
behalf of the National Science Foundation our deep gratitude 
for the very strong support this committee gave our entire 
budget but also the programs within the budget.
    I also want to express our appreciation for the confidence 
you have shown us in increasing the education authorization and 
the specific programs in the America COMPETES Act. I believe 
that we have outstanding programs, and they are very much in 
the interest of the Nation, and I appreciate your support.
    Going on with my remarks, I am pleased to present the 
National Science Foundation----
    Chairman Baird. We won't count that against you. We don't 
count compliments of the Committee against your time, your 
five-minute time. Doctor, I should acknowledge, also, the 
various directorates that are along here with you today. We 
want to thank them for their work. They probably won't be 
testifying, but thank you for coming and for your work.
    Please proceed, Dr. Bement.
    Dr. Bement. Thank you. Chairman Baird, Ranking Member 
Ehlers, and Members of the Subcommittee, I am pleased to 
present the National Science Foundation's budget for the 2009 
fiscal year.
    NSF proposes an investment of $6.85 billion to advance the 
frontiers of science and engineering research and education. 
Our budget request includes an increase of $789 million or 13 
percent over fiscal year 2008. This increase is necessary to 
put NSF back on the course that was chartered by the America 
COMPETES Act and the President's American Competitiveness 
Initiative.
    This budget reflects the Administration's continued resolve 
to double overall funding for the NSF within 10 years.
    I would also like to thank you for recognizing the 
importance of our Agency Operations and Award Management 
account in the 2008 Omnibus appropriation. Our stewardship 
activities allow us to serve award recipients with tools such 
as the new grants management website, research.gov, and this is 
a tough account to get strong support.
    The timing of this testimony coincides with a period of 
economic uncertainty in our country. I have come here today to 
tell you that an investment in the National Science Foundation 
is an investment in America's economic security. NSF provides 
two essential ingredients of a healthy, high-tech economy; 
basic research discoveries and a highly-trained work force.
    For over 50 years NSF has been the foundation of 
innovation, fostering great ideas and the great minds who 
discover them. NSF discoveries have led to many of the 
technological innovations you and I take for granted today, and 
yet for fiscal year 2008 NSF's budget increase fails to keep up 
with inflation.
    By contrast, other nations of the world are steadily 
increasing their investments in STEM education and basic R&D. I 
assure you multi-national companies will have no problem 
relocating their operations to the countries where they can 
find the best-trained workforce and the latest research ideas.
    The world is changing. Lead times for new products are 
shrinking. Now more than ever basic research discoveries are 
essential to keeping the wheels of innovation turning in 
America's high-tech companies. It is not nearly enough to 
maintain the federal R&D investment status quo. It is our 
solemn obligation to keep up with corporate America's demand 
for innovative people and ideas.
    At NSF we are responsible to emerging potentially 
transformative areas of research. I would like to highlight 
some of our new cross-cutting, multi-disciplinary initiatives. 
We created these initiatives in response to the input we 
received from the research communities we serve.
    We request $100 million to continue Cyber-enabled Discovery 
and Innovation, our bold five-year initiative to apply 
revolutionary computational tools and concepts to all fields of 
science, engineering, and education.
    Our request includes $20 million for Science and 
Engineering beyond Moore's Law. This initiative aims to 
position the United States at the forefront of communications 
and computation, moving us beyond the limitations of current 
systems.
    We are requesting $15 million to fund Adaptive Systems 
Technology, our new effort aimed at using all aspects of 
biological science to inspire transformative new technologies.
    Our request of $10 million for the Dynamics of Water 
Processes in the Environment initiative will bring together 
researchers from various disciplines to enhance our ability to 
understand the complexities of fresh water systems at regional 
and local levels.
    In addition to our ongoing efforts in transformative 
research, we believe that a truly competitive workforce is one 
that reflects the full potential and diversity of the American 
people themselves. Our efforts to broaden participation in 
science and technology targets students at all education levels 
and from all geographic areas. We train the Nation's skilled 
workforce by providing research opportunities for 
undergraduates, graduate students, and post docs.
    We research and evaluate effective STEM curricula for the 
Nation's K to 12 classrooms and provide opportunities for 
teacher education, and we develop innovative programs for 
informal science and technology learning for students young and 
old in museums, through the mass media, and through other 
outreach activities that touch the imaginations of millions of 
Americans.
    Mr. Chairman, time does not permit me to describe the many 
other numerous activities NSF sponsors to strengthen and 
support our nation's science and technology research and 
education. NSF's relatively small size belies its catalytic 
impact on all sectors of the economy. I am hard pressed to 
think of another example in which the taxpayers derive such a 
tremendous return on investment.
    Thank you for extending me the invitation to speak with 
this subcommittee today, and I look forward to answering your 
questions.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Baird, Ranking Member Ehlers and Members of the 
Subcommittee, I am pleased to present the National Science Foundation's 
budget for the 2009 fiscal year.
    The National Science Foundation (NSF) proposes a fiscal year 2009 
investment of $6.85 billion to advance the frontiers of research and 
education in science and engineering. Our budget request includes an 
increase of $789 million--or 13 percent--over the current fiscal year 
2008 amount. This increase is necessary to put NSF back on the course 
that was charted by the President's American Competitiveness Initiative 
(ACI) and by the America COMPETES Act. This year's budget reflects the 
Administration's continued resolve to double overall funding for the 
ACI research agencies within 10 years.
    An investment in the National Science Foundation is a direct 
investment in America's economic security. In fact, without a solid 
basic research foundation for our high-tech economy, no economic 
security is possible. Basic research under-pins all of the technology 
that constitutes the lifeblood of today's global market. America's 
sustained economic prosperity is based in part on technological 
innovation resulting from previous fundamental science and engineering 
research. Innovation and technology are engines of the American 
economy, and advances in science and engineering provide the fuel.
    While the United States still leads the world in its level of 
public and private R&D investment, our counterparts around the globe 
are well aware of the importance of funding R&D. A string of recent 
reports have found evidence that China is rapidly accruing global 
technological standing, including an OECD finding that China was set to 
become the second-highest investor in R&D among world nations in 2006, 
behind only the United States.\1\<SUP>,</SUP>\2\<SUP>,</SUP>\3\ Over 
the last two decades, U.S. federal support of research in the physical 
sciences, mathematics, and engineering has been stagnant when adjusted 
for inflation. As a percentage of GDP, the U.S. Federal Government has 
halved its investment in physical science and engineering research 
since 1970. Conversely, the Chinese government has more than doubled 
its GDP percentage expenditure in R&D since 1995.\4\
---------------------------------------------------------------------------
    \1\ http://www.oecd.org/document/26/
0,2340,en<INF>-</INF>2649<INF>-</INF>201185<INF>-</INF>37770522<INF>-</INF>
1<INF>-</INF>1<INF>-</INF>1<INF>-</INF>1,00.html
    \2\ http://www.tpac.gatech.edu/hti2007/
HTI2007ReportNSF<INF>-</INF>012208.pdf
    \3\ http://www.nsf.gov/statistics/nsf07319/pdf/nsf07319.pdf
    \4\ Ibid.
---------------------------------------------------------------------------
    More than a dozen major studies have now concluded that a 
substantial increase in federal funding for basic scientific research 
is critical to ensure the preeminence of America's scientific and 
technological enterprise.
    Just recently, Norman Augustine, former CEO of Lockheed Martin, 
released a follow-up to ``The Gathering Storm'' report entitled, ``Is 
America Falling Off the Flat Earth?'' His message is clear: ``Unless 
substantial investments are made to the engine of innovation--basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \5\
---------------------------------------------------------------------------
    \5\ Augustine, Norman. Is America Falling off the Flat Earth? 
National Academies Press.
---------------------------------------------------------------------------
    For over fifty years, NSF has been a steward of the Nation's 
science and engineering enterprise. NSF investments in discovery, 
learning, and innovation have been important to increasing America's 
economic strength, global competitiveness, national security and 
overall quality of life.
    With its relatively small size, NSF delivers an enormous ``bang for 
the buck'' of Federal Government research and development (R&D) 
investment. NSF represents just four percent of the total federal 
budget for research and development, but accounts for a full fifty 
percent of non-life science basic research at academic institutions. 
NSF is the research funding lifeline for many fields and emerging 
interdisciplines at the frontiers of discovery. In fact, NSF is the 
only federal agency that supports all fields of basic science and 
engineering research.
    NSF relies on a merit-based, competitive process that is critical 
to fostering the highest standards of excellence and accountability--
standards that have been emulated at other funding agencies around the 
world.

NSF Supports American Innovation

The Foundation of Innovation
    NSF often funds a technology in its earliest stages, frequently 
before other agencies or industries get involved. NSF funding was 
involved in the developmental phase of the technology used in magnetic 
resonance imaging (MRI) now ubiquitous in diagnostic medicine, the 
research that led to the development of silicon-coated glass used in 
flat panel displays, and the early investigations that led to green and 
blue light-emitting diodes used in cell phone displays and traffic 
lights. In 1952, Caltech Professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to discover the molecular structure of DNA, and 
another Nobel laureate, David Baltimore, to unravel some of its 
mysteries.
    In a more recent example, NSF CAREER awardee Jay Keasling, now the 
head of the NSF-sponsored Synthetic Biology Engineering Research Center 
at the University of California-Berkeley, and two post-doctoral 
researchers from his lab founded Amyris, a company that is taking a 
revolutionary approach to chemical manufacturing by harnessing 
metabolic processes in microorganisms. Through genetic engineering, the 
researchers ``program'' the microbes to churn out useful chemicals, 
bypassing traditional, more expensive methods. Amyris has engineered a 
strain of yeast that can produce large quantities of artemisinic acid, 
a precursor to a compound found naturally in a plant that fights 
malaria but is currently in short supply. Amyris is also developing a 
fermentation process to deliver a biofuel gasoline substitute. NSF 
funding of the early research conducted at Berkeley enabled the 
discoveries that led to this promising new company, named 2007 
``Business Leader of the Year'' by Scientific American magazine.
    NSF as an agency is itself the origin of transformative practices. 
One new NSF innovation is Research.gov, which is fulfilling our vision 
of a seamless interface between government funding agencies and the 
investigators we support. Research.gov is a one-stop shop, where 
researchers can go to manage their existing portfolio of grants and 
explore new opportunities. Research.gov is a tool that streamlines the 
process of applying for federal grants, making it easier and more cost-
effective for the Federal Government to serve its customers.
Educating Tomorrow's Workforce
    Beyond all of our efforts to advance the frontiers of knowledge and 
spur innovation, NSF is dedicated to educating and training the 
Nation's skilled labor force. NSF plays a role in science, technology, 
engineering, and math (STEM) education at every educational level. Our 
contribution to education may ultimately be NSF's most profound and 
meaningful legacy.
    The scientists, technologists, engineers, and mathematicians 
trained through NSF's integration of research and education transfer 
the latest scientific and engineering concepts from universities 
directly to the entrepreneurial sector when they enter the workforce.
    Our graduate research fellowship (GRF) program has supported 
several notable technologists and scientists early in their 
professional training. Prominent economist Steven Levitt, co-author of 
the popular book Freakonomics, was an NSF GRF recipient from 1992 to 
1994. Sergey Brin, co-founder of Google, was an NSF graduate research 
fellow in the mid-1990s when he began thinking about how to create an 
Internet search engine. NSF's GRF program is as old as the foundation 
itself, and gives young scientists an early career charge, allowing 
them to go on to greatness. At least three Physics Nobel Prize winners 
are former NSF GRF recipients. We are extremely pleased with the 
proposed $29 million increase in the GRF program's funding for fiscal 
year 2009 which will enable us to fund an additional 700 promising 
young American investigators. A recent article from the National Bureau 
of Economic Research suggests that an increase in the number of GRF 
awards would help to supply an increased demand for talented 
individuals in the American science and technology workforce that will 
result from an increase in R&D spending.\6\
---------------------------------------------------------------------------
    \6\ Freeman, Richard. The Market for Scientists and Engineers. NBER 
Reporter, 2007 No. 3, pp. 6-8.
---------------------------------------------------------------------------
    At some point in their careers, nearly 200 Nobel Prize-winning 
scientists received NSF funding for research in chemistry, physics, 
medicine, and economics. And scores of NSF-supported scientists shared 
a measure of the 2007 Nobel Peace Prize as members of the United 
Nation's Intergovernmental Panel on Climate Change.
    To strengthen the educational institutions that benefit from NSF 
awards, the Directorate for Education and Human Resources (EHR) 
program, Innovation through Institutional Integration (I3), challenges 
institutions to think strategically about the creative integration of 
NSF-funded awards. This provides the opportunity for NSF-grantees at 
particular institutions to cooperate and share a common vision for 
improved educational excellence at their institution.

America COMPETES Act Compliance

    The America COMPETES Act contains several requirements for NSF. We 
are actively processing those directives and devising plans to 
implement them in a timely manner. In the FY 2009 request, activities 
that overlap with the President's American Competitiveness Initiative 
receive top priority. These priority areas do include strong links to 
other fields, and our request includes across-the-board increases for 
all directorates.
    We are currently evaluating how to best ramp up the Robert Noyce 
Teacher Scholarship Program to bring an infusion of talented teachers 
into the Nation's K-12 education system. To launch such a large-scale 
program, we will carefully evaluate what we need to do to maximize its 
societal impact and success. We will apply what we have learned from 
our other successful scholarship programs to ensure the program is 
administered in the best possible way.
    We are also working how best to evaluate grant applicants' plans 
for training undergraduates, graduate students, and post-docs in 
responsible and ethical conduct of research. A number of our programs 
including our Centers and the Integrative Graduate Education and 
Research Traineeship (IGERT) program already contain ethics components. 
We will add a new certification requirement for institutions, which 
will require the institution to have a plan in place to provide 
appropriate training and oversight in the responsible and ethical 
conduct of research for all undergraduates, graduate students, and 
post-docs participating in the NSF-funded research project.
    Open access to research results is an essential component of a 
strong and healthy scientific enterprise. We currently make available 
the citations of NSF-funded research on both the NSF website and on 
Research.gov. To further the goal of disseminating the results of NSF-
funded research, we will develop revised reporting guidelines for NSF 
principle investigators (PIs). These guidelines will enable the PIs to 
summarize the key accomplishments of their NSF-funded work, including 
scientific findings, student training, and professional development 
activities. This information will be made available on the NSF website.

2009 Budget Request Highlights

    At NSF, we understand that new discoveries are the main driving 
force behind societal progress. As the Nation's premier funding agency 
for basic research, our mission is to advance the frontiers of 
knowledge, where high-risk, high-reward research can lay the foundation 
for revolutionary technologies and tackle complex societal problems. 
The NSF budget for 2009 reflects this vital agenda, and I'm pleased to 
present it to you today.
    Let me begin with the big picture. As noted earlier, the President 
is requesting $6.85 billion for the NSF in FY 2009. That's an increase 
of almost $789 million, or 13 percent above the current 2008 
appropriated amount. While it seems like a large increase, this level 
is necessary to fulfill the President's vision for physical science and 
basic research set forth in the American Competitiveness Initiative. 
The FY 2009 request is squarely in line with the goal of doubling of 
ACI research agency budgets over 10 years. This increased investment 
will reinforce NSF's leadership in basic science and engineering and 
allow us to preserve America's preeminence in the global technology 
economy.
    In this year's proposed budget, funding levels increase for every 
major NSF appropriations account. Research and Related Activities 
investments increase by 16 percent, and our Education and Human 
Resources account is increased by 8.9 percent. We need rapid progress 
in these areas to stimulate the discoveries in research we need to 
maintain our standing in the global marketplace, and to keep our 
students engaged and ready to perform in the global workforce. Our 
budget includes increases for every Directorate and Office within NSF.
    Here are highlights of some of the key investments we are 
emphasizing in our 2009 budget.
Cyber-enabled Discovery and Innovation
    Cyber-Enabled Discovery and Innovation (CDI) is expected to create 
revolutionary science and engineering research results using 
``computational thinking''--thinking that encompasses all possible 
computational concepts, methods, models, algorithms, and tools. 
Computational thinking is relevant to all fields of science, 
engineering and education, and promises to have a profound impact on 
our nation's ability to generate and apply new knowledge. We expect CDI 
research to produce paradigm shifts in our understanding of a wide 
range of science and engineering phenomena, and we anticipate socio-
technical innovations to create new wealth and enhance the national 
quality of life. By investing in CDI, NSF continues its leadership in 
enabling the United States to preserve its role as the world leader in 
information technology.
    Requested Funding Level: $100 million

Science and Engineering Beyond Moore's Law
    ``Moore's Law'' refers to the empirical observation made in 1965 by 
Intel co-founder Gordon Moore that the speed of computer processing 
based on semiconductor integrated circuits doubles about every 18 
months. With current silicon technology, we expect to reach the 
physical and conceptual limits of Moore's Law within 20 years. If we 
are ever to solve the computational challenges inherent in today's 
great scientific questions, we must find a way to take computing power 
and communications beyond Moore's Law. To get there, we'll need 
entirely new scientific, engineering, and conceptual frameworks. 
Fundamental research across many disciplines will be called upon to 
deliver the new hardware, architectures, algorithms, and software of 
the computers of tomorrow.
    Requested Funding Level: $20 million

Adaptive Systems Technology
    Recent progress in probing the secrets of biological systems has 
been explosive. We are only just beginning to see the application of 
these new and transformational discoveries to the development of 
engineered systems, especially at the interface between human and 
machines. We call our new interdisciplinary endeavor--research at the 
convergence of human and mechanical systems--Adaptive Systems 
Technology (AST). New applications and technologies resulting from AST 
have already demonstrated substantial economic potential. Artificial 
retinas and cochlea, electronic language translators, and smart hand-
held electronics are just a handful of the products that have already 
come to market at the human-machine interface. NSF's broad portfolio 
encompasses the diverse research areas involved in this new 
interdisciplinary effort. Biologists uncover nature's progression from 
simple to complex nervous systems; physicists and chemists explain the 
fundamental processes underlying complex neural organization and 
communication pathways; mathematicians, computer scientists and 
cognitive scientists explore how systems compute; learning and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment; while engineers allow the design, analysis 
and construction of systems that mimic living nervous system networks. 
By working together, these scientists and engineers can benefit from 
the knowledge and experience of experts in other fields, developing new 
concepts through collaboration and idea-sharing.
    Requested Funding Level: $15 million

Dynamics of Water Processes in the Environment
    This activity will build upon NSF's considerable track record on 
fundamental water research, while utilizing our unique ability to cross 
disciplinary boundaries to bring together the separate communities of 
researchers working on the varying aspects of water science. Water is 
fundamental to every economic activity in the country, and yet, we do 
not have a full understanding of the effects of human interventions and 
changing environmental conditions on the availability and quality of 
fresh water. The economic driving forces for understanding water 
processes are compelling: droughts alone cause average damages of $6 to 
$8 billion dollars annual in the United States. Understanding water 
dynamics is also essential to understanding climate and environmental 
change. NSF's investment in Dynamics of Water Processes in the 
Environment will enhance our ability to understand complex freshwater 
systems at regional and local levels, taking advantage of advanced 
observation networks, cyberinfrastructure, and integrated databases.
    Requested Funding Level: $10 million

National Nanotechnology Initiative
    NSF leads the U.S. nanotechnology research effort, and we remain 
strongly committed to supporting this vital emerging industry. Our goal 
is to support fundamental research and catalyze synergistic science and 
engineering research and education in emerging areas of nanoscale 
science and technology. We are also committed to research directed at 
the environmental, health, and safety impacts of nanotechnology. Novel 
materials, devices, and systems--with their building blocks designed on 
the scale of nanometers--open up new directions in science, 
engineering, and technology with potentially profound implications for 
society. With the capacity to control and manipulate matter at this 
scale, science, engineering, and technology are realizing revolutionary 
advances in areas such as individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and order-of-magnitude faster computer chips.
    Requested Funding Level: $397 million

Climate Change Science Program
    Scientists predict that the climate of the Earth is changing 
rapidly, and we have much to learn about how climate affects human 
activities, how human activities affect climate, and what we can do to 
protect human life and health in the face of disruptive climate events. 
The Climate Change Science Program (CCSP) was established in 2002 in 
response to the challenge of understanding climate and climate 
variability. Science-based knowledge is absolutely essential to our 
ability to predict the changes that are likely to take place, and 
devise informed plans to mitigate the negative impacts of climate 
change on humanity. The CCSP engages thirteen U.S. agencies in a 
concerted interagency program of basic research, comprehensive 
observations, integrative modeling, and development of products for 
decision-makers. Consistent with the FY 2009 Interagency Implementation 
Priorities memo, NSF provides support for the broad range of 
fundamental research activities that form a sound basis for other 
mission-oriented agencies in the CCSP, and the Nation at large.
    Building on our agency's particular strengths, NSF encourages 
interdisciplinary activities and focuses particularly on Earth system 
processes and the consequences of change. Our priorities include the 
management of enormous amount of data necessary for accurate global 
change modeling and research, the refinement and improvement of 
computational models, and the development of new, innovative Earth 
observing instruments and platforms.
    Requested Funding Level: $221 million

International Science and Engineering
    International collaboration is essential to the health of the 
Nation's research enterprise. The importance of international 
partnership continues to increase as globalization ``shrinks'' our 
world. Consequently, our funding request for the Office of 
International Science and Engineering is increased by nearly 15 percent 
to $47.4 million. A major focus in our budget is the Partnerships for 
International Research and Education (PIRE) program, which increases by 
$3.0 million to $15.0 million. This program funds innovative, 
international collaborative research projects that link U.S. 
institutions and researchers at all career levels with premier 
international collaborators to work at the most promising frontiers of 
new knowledge.

Broadening Participation
    NSF remains a leader in efforts to broaden participation in science 
and engineering, so that America's science and engineering enterprise 
is as diverse as the Nation from which it draws its workforce. Our 2009 
request for the Experimental Program to Stimulate Competitive Research 
(EPSCoR) program increases to $113.5 million. We are also increasing 
our request for several programs designed to reach out to under-
represented groups, including Alliances for Graduate Education and 
Professoriate (AGEP), the Historically Black Colleges and Universities-
Undergraduate Program (HBCU-UP), the Louis Stokes Alliances for 
Minority Participation (LSAMP), and Centers of Research Excellence in 
Science and Technology (CREST).

Enhancing Opportunities for Beginning Researchers (CAREER)
    The 2009 request provides an increase of approximately $14 million 
for funding of the CAREER program. This increase will allow us to award 
some 34 more CAREER awards than in FY 2008. CAREER awards support 
exceptionally promising college and university junior faculty who are 
committed to the integration of research and education. Our experience 
with previous CAREER awardees has proven that these faculty become the 
research leaders of their respective fields, and this program is vital 
to fostering the success of emerging science and technology leaders.
    Requested Funding Level: $182 million

Stewardship
    NSF's Stewardship goal, to support excellence in science and 
engineering research and education through a capable and responsive 
organization, remains a priority in the 2009 budget, with a 13 percent 
increase to $404.3 million. Our request increases the NSF workforce by 
50 staff to enable us to manage our growing and increasingly complex 
workload. Investments in information technology (IT) increase by 32 
percent to $82.0 million, with an emphasis on increasing the 
efficiency, productivity, and transparency of NSF's business processes. 
In this request, NSF's IT portfolio is realigned to tie funding for 
mission-related activities more directly to NSF's programs.
    Requested Funding Level: $404 million

Major Research Equipment and Facilities Construction (MREFC) account
    NSF will continue to support a portfolio of ongoing projects in the 
Major Research Equipment and Facilities Construction account (MREFC), 
including the Atacama Large Millimeter Array, Ice Cube, and Advanced 
LIGO.
    The Foundation continues to be committed to the Alaska Regional 
Research Vessel (ARRV), the National Ecological Observatory Network 
(NEON), and the Ocean Observatories Initiative (OOI). However, in 
keeping with new NSF policies, Administration and Congressional 
mandates, and guidance from the National Science Board, NSF has adopted 
more stringent budget and schedule controls to improve our stewardship 
of taxpayer dollars. We are postponing requests for additional funding 
for those projects until they have undergone a final design review, 
completed a risk management plan, and developed a rigorous baseline 
budget, including carefully considered contingencies.
    NSF's MREFC portfolio includes late-stage design-phase funding for 
the proposed Advanced Technology Solar Telescope (ATST), which if 
carried into the construction phase would be the first large U.S. solar 
telescope built in the past 30 years. ATST would reveal critical 
information needed to explore crucial mysteries such as: What are the 
mechanisms responsible for solar flares, coronal mass ejections and 
space weather, with their associated impact on satellites, 
communications networks, and power grids? What are the processes that 
cause solar variability and its impact on the Earth's climate and 
evolution? The ATST project is managed by the National Solar 
Observatory, which administers the world's leading collection of solar 
telescopes.
    Requested Funding Level: $2.5 million

Concluding Remarks

    Mr. Chairman, I've touched on just a handful of programs found in 
NSF's diverse and vibrant portfolio. NSF's research and education 
activities support the Nation's innovation enterprise. America's 
present and future strength, prosperity and global preeminence depend 
directly on fundamental research. This is not merely rhetoric; the 
scientific and economic record of the past 30 years is proof that an 
investment in R&D is an investment in a secure future.
    NSF may not be the largest agency that funds science and 
engineering research, but our size serves to keep us nimble. Our 
portfolio is continually evolving as we identify and pursue new 
research at the frontiers of knowledge. An essential part of our 
mission is to constantly rethink old categories and traditional 
perspectives. This ability is more important than ever, as conventional 
boundaries constantly shift and disappear--boundaries between nations, 
between disciplines, between science and engineering, and between what 
is basic and what is applied. NSF, with its mandate to support all 
fields of science and engineering, is uniquely positioned to meet the 
needs of researchers exploring human knowledge at these interfaces, 
whether we're organizing interdisciplinary conferences, enabling cyber-
sharing of data and information, or encouraging new collaborations and 
partnerships across disciplinary and national borders. No other 
government agency comes close to our flexibility in STEM education and 
basic research.
    In today's high-tech economy, the supply of new jobs is 
inextricably linked to the health of the Nation's innovation endeavor. 
NSF is involved in all aspects of innovation; NSF not only funds the 
discoveries that directly become the innovations of tomorrow, we also 
fund discoveries that lead to still more discoveries that lead to the 
innovations of tomorrow, and, perhaps most critically, we train the 
technologists who dream up the discoveries that lead to the discoveries 
and innovations of tomorrow.
    Industry increasingly relies on government support for high-risk, 
high-reward basic research. If we fail to provide adequate support of 
the technological sector now, we may well reduce our own economic 
security. It is no accident that our country's most productive and 
competitive industries are those that benefited the most from sustained 
federal investments in R&D--including computers and communications, 
semiconductors, biotechnology, and aerospace.
    As we look to the century ahead of us, we face the reality that the 
other nations in this world are eager to create jobs and robust 
economies for their citizens. In this context, ``globalization'' is 
shorthand for a complex, permanent, and challenging environment that 
calls for sustainable, long-term responses, not just short-term fixes. 
Regardless of our action or inaction as a nation, the world is full of 
highly motivated and increasingly skilled workers who are working hard 
to improve their economic standing and well-being. We can either 
innovate, and keep our economic prosperity, or stagnate, and suffer the 
consequences of inaction.
    Despite some of the more pessimistic forecasts of some observers, I 
believe that America can continue to be on the leading edge of ideas 
and research. Through strong federal leadership, we can maintain the 
standing of our businesses and universities. We must not only maintain 
our position, we must actively seek to increase our strengths: 
leadership in fundamental discovery, including high-risk, high-reward 
transformational research, state-of-the-art facilities and 
infrastructure, and a world-class S&E workforce. With a firm commitment 
to these fundamental building blocks of our high-tech economy, we can 
solidify America's role as the world leader in innovation.
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview has given you a taste of just how very important the National 
Science Foundation and its activities are to the future prosperity of 
the United States. I look forward to working with you in months ahead, 
and I am happy to answer any questions you may have.

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been Director since Dec. 7, 2001. As head of 
NIST, he oversaw an agency with an annual budget of about $773 million 
and an on-site research and administrative staff of about 3,000, 
complemented by a NIST-sponsored network of 2,000 locally managed 
manufacturing and business specialists serving smaller manufacturers 
across the United States. Prior to his appointment as NIST Director, 
Bement served as the David A. Ross Distinguished Professor of Nuclear 
Engineering and head of the School of Nuclear Engineering at Purdue 
University. He has held appointments at Purdue University in the 
schools of Nuclear Engineering, Materials Engineering, and Electrical 
and Computer Engineering, as well as a courtesy appointment in the 
Krannert School of Management. He was Director of the Midwest 
Superconductivity Consortium and the Consortium for the Intelligent 
Management of the Electrical Power Grid.
    Bement came to the position as NIST Director having previously 
served as head of that agency's Visiting Committee on Advanced 
Technology, the agency's primary private-sector policy adviser; as head 
of the advisory committee for NIST's Advanced Technology Program; and 
on the Board of Overseers for the Malcolm Baldrige National Quality 
Award.
    Along with his NIST advisory roles, Bement served as a member of 
the U.S. National Science Board from 1989 to 1995. The board guides NSF 
activities and also serves as a policy advisory body to the President 
and Congress. As NSF Director, Bement now serves as an ex officio 
member of the NSB.
    He currently serves as a member of the U.S. National Commission for 
UNESCO and serves as the Vice-Chair of the Commission's Natural 
Sciences and Engineering Committee.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    He has been a Director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, an honorary 
doctorate degree in science from Case Western Reserve University, an 
honorary doctorate degree in engineering from the Colorado School of 
Mines, and a Chinese Academy of Sciences Graduate School Honorary 
Professorship. He is a member of the U.S. National Academy of 
Engineering and a fellow of the American Academy of Arts and Sciences.

STATEMENT OF DR. STEVEN C. BEERING, CHAIRMAN, NATIONAL SCIENCE 
                             BOARD

    Dr. Beering. Good morning, Chairman Baird, Ranking Member 
Ehlers, and Members of the Subcommittee. I very much appreciate 
the opportunity to address you today. My name is Steven 
Beering, and I am the Chairman of the National Science Board. I 
am honored to represent the 24 members of this Board before you 
today.
    Let me first thank the Members of the Subcommittee for your 
long-term commitment and support of the National Science 
Foundation and its investments in a broad portfolio of research 
and education. We also applaud your strong bipartisan support 
for legislation over the past year that will bolster U.S. 
leadership in science and technology, including the passage of 
H.R. 2272, the America COMPETES Act.
    The National Science Board and the broader science and 
engineering community were surprised and disappointed by the 
actual appropriations in the fiscal year 2008 Omnibus Bill, 
which erased most of the anticipated increases in support for 
research. In such an uncertain funding climate we are concerned 
with the signal this sends to our potential partners in 
international science projects, but also the message we send to 
international and American students who may be deterred from 
pursuing science and engineering careers in this country.
    As many other countries invest heavily in science and 
engineering research, graduate a record number of scientists 
and engineers, and increase incentives to attract outstanding 
international students and scholars, it is a dangerous time for 
the U.S. to neglect our science and engineering enterprise.
    The National Science Board is committed to helping this 
country maintain our leadership in science and technology. In 
addition to its policy and oversight role at NSF, the Board has 
also addressed a number of significant policy issues for U.S. 
science and engineering. The Board is working, for example, 
with NSF to implement recommendations in several recent 
education reports, including a ``National Action Plan for 
Addressing the Critical Needs of the U.S. Science, Technology, 
Engineering and Mathematics Education System,'' ``Moving 
Forward to Improve Engineering Education,'' the ``Hurricane 
Warning, the Critical Need for a National Hurricane Research 
Initiative,'' ``Enhancing Support of Transformative Research at 
the National Science Foundation,'' and the ``Science and 
Engineering Indicators 2008,'' which includes the ``Digest of 
Key Science and Engineering Indicators'' and the companion 
piece policy statement entitled, ``Research and Development: 
Essential Foundation for U.S. Competitiveness in a Global 
Economy.''
    We will be introducing an additional report next month on 
``International Science and Engineering Partnerships, A 
Priority for U.S. Foreign Policy and Our Nation's Innovation 
Enterprise.''
    In response to the America COMPETES Act, the Board has 
undertaken a number of actions. We recently sent reports to 
Congress to make recommendations on NSF policies regarding cost 
sharing and on pre-construction and management and operations 
cost coverage under the Major Research Equipment and Facilities 
Construction Account and will be preparing a final report for 
Congress on this subject this year.
    The Board is also reviewing the impacts of NSF policies on 
interdisciplinary research and on limiting the number of 
proposals per institution of higher education for some awards. 
The Board will report back to Congress on both of these issues 
by August of this year. Finally, the Board will evaluate a 
pilot program of grants for new investigators at NSF and report 
the findings to Congress by August of 2010.
    For fiscal year 2009, the request for the National Science 
Board is $4.03 million, an increase of 1.5 percent over fiscal 
year 2008. Next year's budget will allow the Board to 
strengthen its oversight in policy duties for NSF and provide 
independent scientific advice for the President and Congress.
    In addition, the Board will continue to increase 
communication and outreach with all of our stakeholders. For 
example, we continue to engage with numerous stakeholders to 
implement recommendations from our STEM Education Action Plan.
    The National Science Board supports the fiscal year 2009 
budget for NSF and for basic science research in other agencies 
at the President's request, so that we can begin to make up for 
the opportunities that we will miss this year under the fiscal 
year 2008 Omnibus Appropriations Bill.
    You have my pledge on behalf of the Board that we will 
continue to work closely with the NSF Director to insure that 
funding decisions continue to provide maximum returns on the 
taxpayers' investment and our nation's future.
    Thank you very much.
    [The prepared statement of Dr. Beering follows:]

                Prepared Statement of Steven C. Beering

    Chairman Baird, Ranking Member Ehlers and Members of the Committee, 
I appreciate the opportunity to address you today. My name is Steven 
Beering, and I am the Chairman of the National Science Board. I am 
honored to represent the twenty-four members of the National Science 
Board before you today.
    On behalf of the entire National Science Board,\1\ I would like to 
thank the Members of this Subcommittee for your long-term commitment in 
support of the National Science Foundation and its investments in a 
broad portfolio of research and education in science, technology, 
engineering, and mathematics. We also applaud your strong bipartisan 
support for legislation over the past year that will bolster U.S. 
leadership in science and technology, including the passage of H.R. 
2272, the America COMPETES Act, last August. The science and 
engineering communities were also encouraged to see that this committee 
recommended increases in funding for basic scientific research in the 
Commerce, Justice, Science, and Related Agencies Appropriations Act 
last year. With the President and Congress in agreement about the 
importance of science and engineering research and education for U.S. 
innovation and competitiveness, the stakeholders in science and 
engineering research and education looked forward to advances in 
discovery and innovation that would be enabled by the promised budget 
increases.
---------------------------------------------------------------------------
    \1\ The National Science Board was established by Congress in the 
National Science Foundation Act of 1950 to oversee the activities of 
the National Science Foundation and to serve as an independent advisory 
body to the President and Congress on national policy issues related to 
science and engineering research and education. The twenty-four members 
of the Board are national leaders in diverse areas of science and 
engineering research and education from around the country, who are 
nominated by the President and confirmed by the Senate to serve six-
year terms. The NSF Director also serves as an ex-officio member of the 
Board.
---------------------------------------------------------------------------
    The National Science Board and the broader science and engineering 
community were surprised and disappointed by the actual appropriations 
in the fiscal year 2008 omnibus bill, which erased most of the 
anticipated increases in support for research. Now, instead of 
expanding research activities as planned, we are confronted with the 
possibility of layoffs for outstanding researchers in our National 
Laboratories and the frustrating reality that our federal research 
funding programs will be forced to turn away many innovative ideas that 
would have received awards if funding had been in keeping with the 
objective of doubling over 10 years for NSF, National Institute of 
Science and Technology in Department of Commerce, and the Office of 
Science at the Department of Energy.
    The 2008 omnibus bill has significantly impacted the National 
Science Foundation's mission to support basic research in the United 
States. The 1.3 percent increase in the research and related activities 
budget is below the rate of inflation, and thus represents a decline in 
support for these activities. If the FY 2008 omnibus were in line with 
the budget doubling that was supported by the President's American 
Competitiveness Initiative and the America COMPETES Act, NSF estimates 
that they would have been able to award 1,000 more grants and 230 more 
graduate research fellowships this year. NSF has also shelved several 
program solicitations that were planned for 2008, including a new 
program in Computer and Information Science and Engineering for the 
development of a competitive workforce and the Office of Polar 
Programs' program on Climate Change and Changing Seasonality in the 
Arctic program.
    In such an uncertain funding climate, we are concerned with the 
signal this sends to our potential partners in international science 
projects but also the signal sent to international and American 
students who may be deterred from pursuing science and engineering 
careers in this country. As many other countries invest heavily in 
science and engineering research, graduate a record number of 
scientists and engineers, and increase incentives to attract 
outstanding international students and scholars, it is a dangerous time 
for the U.S. to neglect our science and engineering enterprise.
    Although the United States is still the world leader in science, 
technology, and engineering, the findings of the National Science Board 
and of many other eminent bodies representing a wide range of 
perspectives, from think tanks, industry, academia, and government, 
indicate that urgent and sustained action is required to maintain our 
leadership. During these difficult economic times, when industry may be 
forced to cut back basic research investments for short-term survival, 
it is particularly critical for the Federal Government to ensure our 
innovative capacity through basic research and workforce training in 
science and engineering. The American public agrees: the National 
Science Board's Science and Engineering Indicators 2008 reports that 
according to the most recent NSF survey, in 2006, public support for 
federal investments in basic scientific research is at its highest 
level since inception of the survey in 1979.

Overview of National Science Board Activities in FY 2007-2008

    The National Science Board is committed to helping this country 
maintain our leadership in science and technology. Over the past year, 
in its oversight role for NSF, it has reviewed and endorsed the Office 
of Inspector General's Semi-annual Reports to Congress and approved the 
NSF management response; we approved the Foundation's Budget Submission 
for transmittal to OMB; reviewed the Foundation's annual Merit Review 
Report; and provided review and decisions on major awards or proposal 
funding requests for 13 awards, with a total approved funding of over 
$1.08 billion.
    The Board also addressed a number of significant policy issues for 
U.S. science and engineering, in accord with our statutory mission--far 
more than I will have time or space to describe here. I would like to 
briefly outline the Board's conclusions from a number of reports it has 
issued, and also to present our priorities for the upcoming year.
    First, I will highlight some of our major accomplishments, 
including those activities that specifically address Congressional 
concerns.

NSF Oversight and Policy Directions

    Science, Technology, Engineering and Mathematics (STEM) Education--
The Board is working with NSF to implement recommendations in several 
recent education reports. In October, the Board released A National 
Action Plan for Addressing the Critical Needs of the U.S. Science, 
Technology, Engineering, and Mathematics Education System in response 
to a request from Congress. The report outlines a number of actions 
that local, State, and federal stakeholders can take to improve the 
Nation's STEM education system. In that report, the Board first 
recommends greater coherence in the STEM education system, vertically 
across grade levels and horizontally across States. The second priority 
recommendation is to ensure that students are taught by well-prepared 
and highly effective teachers. A number of NSF programs are identified 
specifically as contributing to the development of human capital in the 
science and engineering workforce, including STEM teachers. These 
include Louis Stokes Alliance for Minority Participation (LSAMP), 
Research Experiences for Undergraduates (REU), the Robert Noyce 
Scholarship program, and the Math and Science Partnerships program as 
examples of NSF programs that prepare effective teachers. We are 
pleased to see that the budget provides additional funds for MSP, the 
Noyce Scholarship and other programs that contribute to the Board's 
objectives for the STEM teaching workforce.
    Another report, Moving Forward to Improve Engineering Education, 
recommended a number of actions for NSF to build upon its innovative 
programs in engineering education to attract, retain, and train 
American engineers from diverse backgrounds to meet domestic needs and 
growing international competition.

    Transformative Research--Occasionally in the course of scientific 
research endeavors, a new finding revolutionizes a field or creates new 
sub-fields of discovery. The willingness of review panels to take risks 
on potentially transformative proposals is an area of continual 
attention at the National Science Foundation in keeping with its 
mission to support discovery through funding basic research. We 
recognize that risk aversion in recommendations for funding by review 
panels is likely to increase as funding becomes increasingly 
competitive. However, we also recognize that our nation cannot afford 
to miss out on revolutionary ideas. Therefore, the Board formed a task 
force on transformative research, which issued a report last May 
entitled Enhancing Support of Transformative Research at the National 
Science Foundation. In the report, the Board recommends that NSF 
implement a Transformative Research Initiative, and is currently 
working with the NSF to implement this recommendation.

    Implementation of the America COMPETES Act--In response to the 
America COMPETES Act, the Board has undertaken a number of actions. The 
Board recently sent reports to Congress to make recommendations on NSF 
policies regarding cost-sharing and on pre-construction and management 
and operations cost coverage under the Major Research Equipment and 
Facilities Construction (MREFC) account, and will be preparing a final 
report for Congress on this subject this year. To briefly summarize the 
findings of these reports:

        <bullet>  The National Science Board has statutory 
        responsibility for the oversight of activities funded from the 
        MREFC account. It is a substantial challenge to prioritize and 
        manage MREFCs, and the Board is exploring the best solution for 
        ensuring solid analyses of science needs, construction costs, 
        and operations and maintenance (O&M) costs in the ``MREFC 
        process'' and to define how the Board can contribute in the 
        oversight process. In particular, the Board recommends that 
        better estimates of lifetime costs be obtained in the pre-
        construction planning phase of a project.

        <bullet>  A 2004 NSB policy eliminated the cost-sharing 
        requirement for research grants and cooperative agreements. The 
        Board recommends changes in the 2004 cost-sharing policy, 
        including reinstatement of mandatory cost-sharing for certain 
        programs.

    I would be happy to meet with you at a later date to elaborate on 
the Board's policy activities or respond to any questions concerning 
any or all of these important policy concerns.
    The Board is also reviewing the impacts of NSF policies on 
interdisciplinary research and on limiting the number of proposals per 
institution of higher education for some awards. The Board will report 
back to Congress on both of these issues by August 2008. Finally, the 
Board will evaluate a pilot program of grants for new investigators at 
NSF and report the findings to Congress by August, 2010.

Advice to the President and Congress

    Science & Engineering Indicators--One of the highlights of the year 
was the recent release of Science and Engineering Indicators 2008, 
which the Board transmits to the President and Congress every even 
numbered year. It is the most comprehensive series of indicators on the 
state of the U.S. science and engineering enterprise in a global 
context. The 2008 Indicators tell a mixed story. A sample of findings 
include:

        <bullet>  The U.S. is the largest, single, R&D-performing 
        nation in the world supplying an estimated $340 billion for R&D 
        in 2006, a record high. However, federal obligations for all 
        academic research (basic and applied) declined in real terms 
        between 2004 and 2005 and are expected to drop further in 2006 
        and 2007. This would be the first multi-year decline for 
        federal support for academic research since 1982.

        <bullet>  Basic research accounted for 18 percent of total R&D, 
        or $62 billion. The Federal Government supplied about 60 
        percent of all basic research funds, industry about 17 percent, 
        with private foundations, academic institutions and other 
        governmental entities supplying the rest.

        <bullet>  U.S. grade school students continue to lag behind 
        other developed countries in science and math, although fourth 
        and eighth grade U.S. students showed steady gains in math 
        since 1990. Only fourth graders showed gains in science 
        compared to 1996.

        <bullet>  The U.S. sustained a relative economic advantage over 
        other developed and developing economies. The U.S. is a leading 
        producer in high-tech manufacturing and knowledge-intensive 
        services, but several Asian countries, led by China, have 
        rapidly increased their global market share. The U.S. 
        comparative advantage in exports of high-technology products 
        has eroded: the U.S. trade balance in advanced technology 
        products shifted from surplus to deficit starting in 2002. 
        Information and communications products geographically 
        concentrated in Asia--particularly China and Malaysia--account 
        for this deficit.

        <bullet>  U.S. public support for government funding of 
        scientific research is strong and growing. In a 2006 survey, 87 
        percent of Americans supported government funding for basic 
        research, up from 80 percent in past surveys dating back to 
        1979. Also, Americans who said the government spends too little 
        on scientific research grew from 34 percent to 41 percent 
        between 2002 and 2006.

        <bullet>  Diversity has increased in the academic science and 
        engineering labor force. From 1973 to 2006, in the academic, 
        doctoral labor force the share of women increased from nine 
        percent to 33 percent, of under-represented minorities 
        (African-Americans, Hispanics, and American Indians/Alaska 
        Natives) from two percent to eight percent, and of Asian/
        Pacific Islanders from four percent to 14 percent.

    Along with Science and Engineering Indicators 2008, the Board has 
prepared two additional reports: Digest of Key Science and Engineering 
Indicators 2008 and a Companion Piece policy statement: Research and 
Development: Essential Foundation for U.S. Competitiveness in a Global 
Economy. The first report was developed to encourage broad use of 
Indicators data. It includes a set of 20 important indicators, and is 
structured for ease of understanding and to provide linkages to more 
extensive discussions and data in the main Indicators volumes that are 
related to the selected indicators. The second, Companion Piece, report 
expresses Board concerns with industry and federal investment in U.S. 
R&D, especially basic research and academic research, and offers 
recommendations on improving our understanding of global trends in 
industrial science and technology and implications for the U.S. economy 
and jobs.

International Partnerships
    The Board's Task Force on International Science conducted a series 
of roundtable discussions and meetings to examine the role of the U.S. 
Government in international S&E partnerships. The task force prepared a 
report on their findings, which was approved at the December 2007 
meeting and will be released in March 2008. The report, International 
Science and Engineering Partnerships: A Priority for U.S. Foreign 
Policy and Our Nation's Innovation Enterprise (NSB-08-4), recommends 
that the U.S. strengthen S&E partnerships with other countries.
    The NSF Office of International Science and Engineering should be 
more active in encouraging international partnerships between NSF 
funded Principal Investigators and scientists and engineers in other 
countries, especially developing countries. In a global world, such 
partnerships enable us to leverage growing basic research investments 
in other countries. For example, partnerships would help to share costs 
of research on common global challenges such as sustainable energy, 
climate change, natural disasters, disease pandemics, and the fight 
against terrorism. In addition, the Board believes that S&E 
partnerships could be utilized more broadly for diplomacy. We also 
would like to see more formal, high level cooperation in S&E among 
federal agencies through NSTC. Opinion polls show that countries with 
very unfavorable views of the U.S. in general still overwhelmingly 
admire U.S. science and technology. For example, scientific 
collaborations with Russia improved goodwill between the countries 
after the Cold War and helped to ensure that nuclear technology was 
adequately protected; collaborations with countries such as Iran could 
serve a similar purpose today.

    Hurricane Research--Hurricanes account for over half of total 
weather-related damage in the U.S. Stimulated by the devastation after 
Hurricane Katrina, the National Science Board convened a Task Force on 
Hurricane Science and Engineering. In January of 2007, it unveiled the 
National Hurricane Research Initiative (NHRI) in the report, Hurricane 
Warning: The Critical Need for a National Hurricane Research 
Initiative. The proposed NHRI would establish highly focused priorities 
that involve industry, academia, and government in addressing research 
gaps and in applying research findings to operations that could help us 
to mitigate the destructive impacts of future hurricanes.

FY 2009 Budget Request

National Science Foundation
    The National Science Board reviewed and approved the FY 2009 budget 
request that was submitted to the Office of Management and Budget. The 
Board supports the President's budget request. The $6.85 billion 
request represents an increase of nearly $789 million, or 13 percent, 
above FY 2008 levels. The request is the first step toward doubling the 
budgets of several agencies including NSF, the National Institute of 
Science and Technology, Department of Commerce, and the Office of 
Science, Department of Energy, over 10 years and is critical for 
realizing the goals of the bipartisan competitiveness agenda that will 
help to maintain U.S. leadership in scientific and engineering research 
and education.
    The NSF already receives many more outstanding research proposals 
that we can fund, so I assure you that the budget increase will be put 
to good use. The proposed 13 percent budget increase will provide 
funding for 1,370 more outstanding research proposals and 3,075 more 
Graduate Research Fellowships to support our most promising young 
American scientists--tomorrow's innovators. Support for graduate 
education is one of NSF's fundamental responsibilities. The Board 
continues to examine the best ways to financially support the future 
generation of scientists and engineers during graduate education. 
Although it is clear that financial support in any form--whether 
scholarship, assistantship, or traineeship--is important for success in 
graduate school, the Board continues to consider how the mechanisms for 
support contribute to the achievement of a range of objectives for 
graduate education, including adaptations to ensure American scientists 
and engineers can compete with scientists and engineers from around the 
world.

National Science Board
    For FY 2009, the request for the National Science Board is $4.03 
million, an increase of $61,000, or 1.5 percent, over the FY 2008 
estimate of $3.97 million. The FY 2009 budget will allow the Board to 
strengthen its oversight and policy duties for NSF and to provide 
independent scientific advice for the President and Congress. In 
addition, the Board will continue to increase communication and 
outreach with universities, industry, the science and engineering 
research community, Congress, federal science and technology agencies, 
and the public. For example, we continue to engage with numerous 
stakeholders to implement recommendations from our STEM education 
action plan.
    This year, the Board will continue to expand our role in approving 
MREFC projects, address the topic of sustainable energy through a 
series of roundtables, review the NSF cost-sharing policy, review the 
impact of multiple proposals on institutions, and analyze support for 
interdisciplinary research. In addition, by August 2010, the Board will 
submit to Congress a report of findings and recommendations on the NSF 
pilot program of grants for new investigators that was established by 
the America COMPETES Act.
    The Board also has been re-examining the policy for recompetition 
and renewal of awards at NSF. In 1997, the Board approved a statement 
on competition, recompetition, and renewal of NSF awards. The Board 
assessed the implementation of the statement, and issued a statement to 
reaffirm the 1997 statement at their last meeting. The Board endorses 
strongly the principle that all expiring awards, including major 
facility awards, are to be recompeted, and believes that peer-reviewed 
competition and recompetition is the process most likely to assure the 
best use of NSF funds for supporting research and education.
    One of the most significant activities over the next two years is 
to plan content for Science and Engineering Indicators 2010 and to 
consider whether we should prepare a second round of the Digest of Key 
Science and Engineering Indicators (that was pilot tested with 
Indicators 2008) for the 2010 volume of Indicators. The Board is 
already soliciting input on the 2008 Indicators and Digest to determine 
how we can improve the 2010 version to address the concerns of the 
various communities who rely on this comprehensive and objective set of 
data to craft policies that foster discovery and innovation through 
science and engineering. We will also be presenting the findings of our 
policy Companion Piece to Indicators to a range of stakeholder 
audiences to discuss possible responses to our recommendations. To this 
point we have held two roll-out events for Indicators 2008, on Capitol 
Hill and at the Chamber of Commerce. We have held additional 
discussions with spokespersons from the Department of Commerce and with 
the members of the Government-University-Industry Research Roundtable 
at the National Academies on data issues and policy concerns 
highlighted in our Companion Piece, Research and Development: Essential 
Foundation for U.S. Competitiveness in a Global Economy.
    A priority for the Board during the upcoming year is sustainable 
energy. In October 2007, the Board established the Task force on 
Sustainable Energy to address the science and engineering challenges 
related to sustainable energy. The Task Force held the first of a 
series of roundtable discussions earlier this month on the role of the 
Federal Government, businesses, non-profits, and other U.S. 
stakeholders in addressing the S&E challenges of sustainable energy. 
The Task Force will continue to meet with stakeholders in order to 
inform a forthcoming report that will contain recommendations for 
implementing a nationally coordinated initiative in S&E research and 
education for sustainable energy.

Closing Remarks

    The Board strongly recommends that Congress fund in full the 
President's budget request for the National Science Foundation and for 
basic scientific research at other agencies. Amidst the great economic 
and political uncertainty of the moment, the importance of research and 
development for innovation and economic growth is undeniable. NSF-
funded research and education provides the foundation for American 
scientific and technological greatness. The economic growth and the 
quality of life that we enjoyed in the 20th century were made possible 
in large part by technological discoveries and innovations. In 
addition, we need science and engineering advances more than ever to 
tackle some of the greatest challenges that we have ever faced, 
including climate change, national security, and sustainable energy 
production.
    I understand that investments in science and technology compete 
with a host of other funding priorities. Though it might be tempting to 
forego the long-term investments in the face of short-term challenges, 
neglecting scientific research and education now will have serious 
consequences for the future of our country. We must bear in mind that 
investments in our scientific and technological workforce, 
infrastructure, and basic research are not luxuries--they are critical 
for long-term prosperity and security. As other countries now actively 
seek to emulate our success by building their own innovation 
infrastructures, we must be ever vigilant to enhance our own innovative 
capacity.
    Based on the President's budget request and the appropriations bill 
from this committee last year, it appears that both parties of Congress 
and the White House appreciate the importance of scientific research 
and education for our country. The FY 2009 budget for NSF and for basic 
science research in other agencies at the level of the President's 
request can begin to make up for the opportunities that we will miss 
this year under the FY 2008 omnibus appropriations bill. You have my 
pledge on behalf of the Board that we will continue to work closely 
with the NSF Director to ensure that funding decisions continue to 
provide maximum returns on the taxpayers' investment in our nation's 
future.

Cited Board Documents

Digest of Key Science and Engineering Indicators 2008 (NSB-08-2), 
        http://www.nsf.gov/statistics/digest08/, January 15, 2008.

Enhancing Support of Transformative Research at the National Science 
        Foundation (NSB-07-32), http://www.nsf.gov/nsb/documents/2007/
        tr<INF>-</INF>report.pdf, May 7, 2007.

Hurricane Warning: The Critical Need for a National Hurricane Research 
        Initiative (NSB-06-115), http://www.nsf.gov/nsb/committees/
        hurricane/final<INF>-</INF>report.pdf

International Science and Engineering Partnerships: A Priority for U.S. 
        Foreign Policy and Our Nation's Innovation Enterprise (NSB-08-
        04) (forthcoming, March 2008).

Moving Forward to Improve Engineering Education (NSB-07-122), http://
        www.nsf.gov/pubs/2007/nsb07122/nsb07122.pdf, November 19, 2007.

``NSB Statement on Competition, Recompetition, and Renewal of NSF 
        Awards'' (NSB-08-16), http://www.nsf.gov/nsb/publications/2008/
        nsb0816<INF>-</INF>statement.pdf

Research and Development: Essential Foundation for U.S. Competitiveness 
        in a Global Economy (NSB-08-3), http://www.nsf.gov/statistics/
        nsb0803/start.htm, January 15, 2008.

``Report to Congress on Cost-sharing Policies at NSF'' (NSB-08-17), 
        http://www.nsf.gov/nsb/publications/2008/
        rprt<INF>-</INF>congress<INF>-</INF>cs<INF>-</INF>policy.pdf, 
        February 7, 2008.

Report to Congress on Pre-construction Funding and Maintenance and 
        Operations Costs Associated with Major Research Equipment and 
        Facilities at NSF'' (NSB-08-15) (Forthcoming).

``Resolution: National Science Board-Competition and Recompetition of 
        NSF Awards'' (NSB-08-12), http://www.nsf.gov/nsb/publications/
        2008/nsb0812<INF>-</INF>comp<INF>-</INF>recomp.pdf

Science and Engineering Indicators 2008 (NSB-08-1), http://www.nsf.gov/
        statistics/seind08/, January 15, 2008.

                    Biography for Steven C. Beering
    Steven C. Beering received B.S. and M.D. degrees and an honorary 
Doctor of Science degree from the University of Pittsburgh. Before 
becoming President of Purdue in 1983, he served for a decade as Dean of 
Medicine and Director of the Indiana University Medical Center. He 
holds appointments as Professor of Medicine at Indiana University and 
Professor of Pharmacology at Purdue University. He retired from the 
Purdue presidency in 2000.
    He served on active duty with the USAF Medical Corps from May 1957 
to June 1969, achieving the rank of lieutenant colonel.
    Beering has held numerous national offices, including the 
chairmanship of the Association of American Medical Colleges and the 
Association of American Universities. He is a former regent of the 
National Library of Medicine.
    He is also a Fellow of the American College of Physicians and the 
Royal Society of Medicine, a member of Phi Beta Kappa, the Institute of 
Medicine of the National Academy of Sciences, and the Indiana Academy.
    He serves on a number of national and corporate boards, including 
NiSource Inc., Central Indiana Corporate Partnership, Inc., Community 
Foundation of Northern Indiana, CID Corporation, and Marquis Who's Who. 
He is a Trustee of the University of Pittsburgh, and the Universities 
Research Association, and is Director Emeritus of the Purdue Research 
Foundation.
    Beering was appointed to the National Science Board in 2002, 
reappointed in 2004, and elected Chairman in 2006.

                               Discussion

    Chairman Baird. Thank you both. We have been joined by 
Eddie Bernice Johnson from Texas. Ms. Johnson, thank you for 
joining us, who has been a champion of women and minority 
issues in science and actually that is a nice segue to one of 
the questions I wanted to ask.
    We had a very informative hearing awhile back on issues 
pertaining particularly to women's role in science. Donna 
Shalala was here, Dr. Olsen as well, testified, and I noted 
with some concern I think as I read the budget, a proposal to 
reduce funding for ADVANCE, and ADVANCE was one of the programs 
that had been cited that if used well, particularly effective 
in changing, making the kind of institutional-wide cultural 
changes that lead to retention. One of the issues that came up 
clearly in our hearing was that we have a fair number of women 
in the science pipeline coming out of high schools, fair number 
entering college, but at the upper levels we have a dramatic 
drop off, and ADVANCE seems to do some of the cultural things 
to change that.
    Could you comment a little bit about that, if you would, 
and what else is being done as manifested in the budget to 
address women and the minority role in science?
    Dr. Bement. Yes. Thank you, Mr. Chairman.
    ADVANCE is a program that is jointly funded by our Research 
and Related Activities Account and also our EHR account. We do 
plan a solicitation in '08, in spite of the reduced funding in 
'08. We have some funding flexibility in '09, that if we have 
meritorious awards that we would like to fund, we will try and 
find additional funding to do that.
    Chairman Baird. So it sounds like you feel fairly committed 
to the program as well still.
    Dr. Bement. Yes, we are very committed to the program.
    Chairman Baird. Talk to us a little bit, if you would, 
about the role of international science. One of the things this 
committee, I mentioned earlier, is going to focus a great deal 
on is scientific diplomacy and international scientific 
collaboration. If you could address some of those programs as 
reflected in this budget and in your perspective on their role 
in the mission. Dr. Beering and Dr. Bement. Either.
    Dr. Beering. Thank you. As I mentioned, we are going to 
have a full report forthcoming very shortly, we hope by the 
28th of March. Our first priority in the International Science 
Taskforce has been to generate a clear, coherent, and 
integrated National strategy. Our second priority is to balance 
U.S. foreign policy with the R&D policy, and the third priority 
is to enhance global mobility of scientists and engineers.
    When our taskforce met in Brussels on the occasion of the 
50th anniversary of the European Union, and I must admit I 
hadn't realized they had been at it for 50 years, we were 
thrilled by their openness and their willingness to share 
scientific knowledge across national boundaries. Science is an 
international language, and knowledge has no boundaries. And it 
wasn't a question of financial support. It was a question of 
willingness to share and to work together.
    And so we would like to see that our international science 
efforts can be coordinated to become a true instrument of 
international policy.
    Dr. Bement. Yes. Thank you. The international activities of 
the National Science Foundation are not only very broad but 
also very appreciated throughout the world. And it is very 
difficult to summarize briefly the full scope of activities in 
our international programs, so with your permission I would 
like to submit for the record a summary report on those 
activities. [Please refer to NSF's response to questions for 
the record submitted by Subcommittee Chairman Baird. For 
reference, the specific question is: Please provide a summary 
of all international science and engineering cooperation 
activities at NSF, including the relevant budget allocations.]
    But they include a broad range of research collaborations, 
not only with the developed economies but also with the 
developing economies throughout the world. It includes 
institutional interactions. I should also say up front that we 
only fund the U.S. part of those interactions on a true 
partnership basis. We engage in exchanges of undergraduate, 
graduate, and post-doc students to give them a research 
experience in different parts of the world. We engage in 
international organizations such as UNESCO and OECD and the 
World Bank to help promote capacity building in the developing 
world.
    And we are also a principle player on most of the bilateral 
exchanges that are coordinated by the State Department. In 
fact, in just the last three or four weeks I have spoken to the 
science counselors of all the major embassies here in 
Washington, and I have had two luncheons with key ambassadors, 
especially in Europe, hosted by Under Secretary Dobriansky.
    So a good bit of my time and my Deputy's time and also our 
Assistant Director's time is spent engaged in these types of 
international activities.
    Chairman Baird. We applaud that, and we look forward to the 
hearing.
    Two other quick comments and then I will recognize my 
friend, Mr. Ehlers. You mentioned, Dr. Beering, hurricane 
warning process and clearly we need to make improvements in 
that area and improve our accuracy and location, magnitude, et 
cetera.
    But this is chance for me to also raise a question I asked 
earlier about the social sciences as well. I have spoken to 
some hurricane forecasters, and actually, if you look at 
Katrina, we were pretty good. They were pretty good, not we, 
but they were pretty good in terms of saying where it was going 
to hit, what its magnitude was, what the potential impacts 
were, et cetera. The challenge was not so much the accuracy of 
the prediction of timing, location, and magnitude, it was 
partly getting people to pay attention. And that seems to me to 
be a social science issue.
    And I note that the budget for social science research is 
actually a good bit less in terms of its increase than is the 
budget for other areas of the overall budget proposal. If you, 
either of you would care to talk about that, I would appreciate 
that.
    Dr. Bement. Yes. Thank you. Social science at the National 
Science Foundation is integrated throughout the Foundation. It 
threads through the Foundation. And it is especially important 
in areas of national need. You mentioned disruptive storm 
events like hurricanes, but it also plays a critical role in 
terrorism, homeland security, and most of our cross-foundation 
initiatives. You will find it in environmental health and 
safety with regard to nanotechnology.
    And you are correct that it is important to understand how 
decisions are made because Katrina, after all, was not just a 
natural disaster. It was a human disaster as well, and it fell 
far short of adequate performance among the key decision-
makers.
    So we very much support social science. With regard to the 
allocation of resources, social science in terms of dollar 
amount has in the '09 budget one of the largest incremental 
increases in years. Biosciences has the largest increase in 
about eight years. We not only had to pay attention to their 
role throughout all of our programs in the Foundation, but 
alignment of our overall program to the goals of the American 
Competitiveness Initiative and the America COMPETES Act.
    So the main objective is to be sure we have healthy 
increases in all the programs but also to pay attention to the 
alignment.
    Chairman Baird. I respect and understand that. I will just 
underscore that the America COMPETES Act was explicit that 
social sciences should share in the increase. It has to a 
degree, but I have concerns.
    Dr. Bement. I agree.
    Chairman Baird. I will recognize my distinguished 
colleague, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I do want to comment the majority for the 
beautiful redecoration of this room. It looks very nice. I 
assume we will soon return the portraits and perhaps disturb 
the decor.
    Chairman Baird. We are looking for an alternative to 
Tennyson by the way if anyone wants to offer that.
    Mr. Ehlers. Just don't try changing the Bible quote.
    Anyway, I think it would be nice, however, if you could 
turn the heat back on.
    Chairman Baird. We are lowering our carbon footprints.
    Mr. Ehlers. Anyway, Dr. Bement, an essential element in 
this submission is support for science and engineering 
education from pre-K through grad school and beyond. I would 
appreciate if you could explain why your new budget, fiscal 
year 2009 budget, does not include funding for many of the NSF 
STEM education activities authorized in the COMPETES Act?
    And I know you are short of money, but I would just like to 
know the rationale.
    Dr. Bement. Yes. We are short on money. First of all, let 
me take the Math and Science Partnership Program. I think the 
increase there was about two and one-half million, which in 
some of these terms, doesn't look like a lot, but it is a 
turnaround from where we were two or three years ago, where we 
were declining at the rate of our mortgage payments with very 
little flexibility for new starts.
    Now, the budget in '09 will allow us to not only cover our 
continuing grants but to invest $15 million in new starts. So 
we expect to have about 15 to 17 new awards. Now, that is a big 
change, and most of that change came about as a result of our 
assessments over the last two years that demonstrated very 
clearly that we are making tremendous headway in our math and 
science partnership school districts and schools in improving 
math education and also science education at almost all levels. 
The only problem is at the middle school level for science, but 
in all other categories there is very positive improvement.
    In some of the other programs the assessments either 
haven't been completed, or they are still in progress, and 
under the Deficit Reduction Act of 2005, and the establishment 
of the Academic Competitiveness Council, the philosophy is 
``show me.'' Show me that these programs are effective through 
rigorous third-party assessments before the funding increases.
    And so that is the environment under which we are currently 
operating. I am very optimistic, however, that our programs are 
strong and the assessments that are currently underway will be 
positive, and we will be able to grow those budgets and get 
them closer to the authorization levels.
    Mr. Ehlers. Thank you. And Dr. Beering, you have put a lot 
of work into developing the National Action Plan for STEM 
Education, and I am curious what feedback the National Science 
Board has received on that report and to what extent the Board 
is still involved with implementing some of its 
recommendations. In particular, how the fiscal year 2009 budget 
reflects any role that NSF might have in that.
    Dr. Beering. Thank you. First of all, we get personal 
support and encouragement. I think by and large there has been 
a National consensus that we need to have a change in attitude 
and commitment and to bring education, particularly science 
education, into the curriculum very early on.
    The big problem is the logistics of 95,000 different school 
board members, and that is where the pushback has also come. We 
had a hearing in this very room here a few months ago where 
that came out, as you recall, and nonetheless, I feel that 
there is broad-based support for the major recommendations of 
having horizontal and vertical alignment and having the 
teachers better prepared than they are now.
    There is concern that teachers don't stay in the profession 
long enough. There is concern that they are not paid at the 
level of their counterparts in business and industry with 
similar preparation, and I have had a lot of reactions from 
business and industry that is in agreement with that perception 
and that hopes to be helpful to us.
    So the early results of that have been very pleasing to us, 
and I think we will continue to make progress.
    Mr. Ehlers. Let me ask you, though, vertical and horizontal 
alignment of standards. That brings forward another issue that 
I have been preaching about for several years, and in fact, 
Senator Dodd and I have introduced a bill trying to develop 
voluntary National standards for the sciences.
    I think we have tremendous problems in this country because 
of the diversity of governments of the schools with the local 
school boards, the state boards of education, and so forth. But 
then in addition beyond that, because we are such an incredibly 
mobile society, a student can take classes in one school 
building, move 10 miles, and find the sequence of subjects is 
different.
    Do you think the vertical and horizontal alignment will 
take care of that, or do you think we should develop these 
voluntary standards, which I would hope would at least take 
care of the sequencing and the major components. These would 
not be mandatory but at least would be good suggestions.
    I would appreciate your comments on that.
    Dr. Beering. I think, again, there is agreement that 
voluntary standards would be quite helpful. There is a concern 
that any proposed legislation would mandate a federal 
coordinating council rather than a voluntary coordinating 
organization as we have proposed, and I think that is the 
single issue that I have had the most comment on from people, 
wondering are we really serious about having a non-federal 
coordinating council, and if so, that would be alright, and 
that would be helpful.
    Mr. Ehlers. Yeah, and I think there would be general 
agreement in the Congress that that would be good as well, as 
long as it is established well, and it has the ability to 
operate in a way that will produce results.
    I see my time is expired. I yield back.
    Chairman Baird. Thank you, Dr. Ehlers.
    Dr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Dr. Beering, in your 
written testimony you indicate that there is a growing public 
support for increasing federal funding for research, for 
scientific research. Do you attribute that to awareness of the 
link between that kind of expenditure and our national economic 
well-being? And if so, and even if not so, what do you propose 
or what do you recommend in terms of keeping that enthusiasm 
alive and growing for public support?
    Dr. Beering. I think people are increasingly aware of the 
scientific advances that are being publicized through the 
media, and they are hopeful that this will produce Nirvana and 
long life and health and happiness, and it is more a hope than 
a reality in many instances.
    But I am happy that there is this positive support rather 
than the opposite.
    Mr. McNerney. There are no recommendations how to continue 
to grow that public support?
    Dr. Beering. I don't have any special ones. No.
    Mr. McNerney. Well, okay. Dr. Bement.
    Dr. Bement. Yes.
    Mr. McNerney. Thank you for coming here today, and I, 
certainly you will find fewer people, you will find nobody that 
is more sympathetic toward funding for science education than 
myself and members of this committee here.
    You indicated that since 1970, the federal investment in 
physical sciences has been halved as a percentage of GDP. At 
the same time we know that our competitors like India and China 
are increasing their support. And in fact, an often repeated 
phrase, the Chinese are putting out more English-speaking 
engineers per year than the Americans are now.
    So do you believe there is a direct correlation between 
federal funding and the number of engineers and scientists that 
we are turning out?
    Dr. Bement. Absolutely. I should point out that almost all 
the funding provided to the National Science Foundation 
supports our innovation system one way or the other. For 
example, our research grants are actually used to train and 
educate graduate students who go right into the innovation 
system. Our graduate fellowships and traineeships have very 
much the same purpose.
    The problem is that the growth in demand for scientists and 
engineers is increasing at about five percent per year, but the 
growth in degrees is only increasing at about one and one-half 
percent per year.
    Furthermore, we are reaching a period where baby boomers 
are retiring at an ever-increasing rate, so that many of our 
federal labs, whether they are defense or non-defense are going 
to start hollowing out before too long.
    Mr. McNerney. So by supplying the men, then you would 
expect there to be increasing salary offers for these types of 
trained people.
    Dr. Bement. I think over a career you would find that these 
are very lucrative career paths. China and India have gotten 
the message that what is driving the economy in a knowledge 
environment is education and investment in research. So both 
India and China are investing quite substantial sums in 
improving the quality of their education, especially at the 
graduate levels, masters and Ph.D. programs.
    And the equation there is very simple. If you produce the 
high-level talent, industry will find their way to your 
doorstop. And if you look at the writings of Craig Barrett, 
Norm Augustine, they are the Cassandras that see the future 
quite clearly because they are in the process of seeing this 
migration begin to take place.
    And I believe we only have a reasonable period of time 
before we address this question. That is why our budget for 
'09, is highly skewed to train the graduate students and to 
provide the fellowships and traineeships that will begin to 
address this in the near-term rather than the longer-term.
    Mr. McNerney. Well, that sort of segues into my next 
question was that the COMPETES Act does authorize a new pilot 
program for young investigators that don't have the reputation 
to get the big grants. Do we expect to see that program 
implemented in some form in the coming fiscal year?
    Dr. Bement. We currently have working groups working on all 
the sections of the America COMPETES Act to figure out, first 
of all, how to come into compliance with all the requirements 
in the Act, and we are making good progress on that. Also to 
begin designing the new programs that are called for in the 
Act. Some of those I think we can start in '08, but we need the 
flexibility in '09 to really bring them up to a decent level.
    With regard to young investigators, if you look at the 
distribution curve of funding and numbers of grants, as a 
function of years from last degree, namely the Ph.D. degree for 
most, what you will find is distribution that is skewed very 
strongly towards younger investigators. In fact, the peak of 
the curve is at about six to seven years after the Ph.D., and 
then it trails off over time. And what we are discovering is 
that about 30 percent of all new investigator grants go to 
young investigators that are about five years from their Ph.D. 
And that comes as a result of our paying attention to young 
investigators through our CAREER grants, through many other 
grants, that favor young investigators.
    But I think more than anything else is the fact that we 
reserve a healthy fraction of our core program to fund 
unsolicited grants, and young investigators would normally 
apply for unsolicited grants in order to support their 
particular interests.
    Mr. McNerney. So you are talking about numbers of grants or 
numbers of dollars when you say that the, when you talked about 
the skew?
    Dr. Bement. Both. We thought of it both ways.
    Chairman Baird. Mr. Bilbray from California.
    Thank you, Mr. Bilbray.
    Dr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank Dr. 
Bement and Dr. Beering for their testimony and for all the work 
that they do. This is one of the most critical areas for our 
country and doesn't really get the attention I think that it 
deserves.
    I have some, probably some further questions. I am, as you 
know, a political scientist and have some further questions on 
that in writing, but I want to, a couple other things I want to 
ask you here.
    First of all, when the Administration, it used the Academic 
Competitiveness Council's assessment of the effectiveness of 
federal STEM ed programs as part of its justification for its 
budget decisions for NSF's Education and Human Resources 
Directorate. The Academic Competitiveness Council, ACC, was 
carried by Education Secretary Spellings, and the ACC found 
that a number of NSF programs did not have adequate 
evaluations.
    So I want to ask Dr. Bement, would you agree with the 
report's conclusions that NSF's education programs are not 
properly evaluated?
    Dr. Bement. No. I disagree and disagree quite strongly. 
Evaluation is a very critical part of all of our education 
programs in EHR, our Education Human Resources Directorate. And 
starting in 1997, we required assessments and evaluations on 
every one of our programs, and even now with all incoming 
grants, we require an assessment plan as part of the grant. And 
that is considered in awarding a grant.
    Now, there is quite a difference of opinion on whether 
random control testing is the gold standard. I think you would 
recognize that in the Noyce Program where you particularly 
select people for scholarships, that is not necessarily a 
random process. So you violate external measures as well as 
internal measures statistically in that kind of an evaluation.
    Furthermore, to do a random control test you have to have 
sufficient numbers that are statistically significant, and if 
you are doing research, it depends on the stage of the 
research. If you are doing implementation, it depends on the 
stage of implementation. Now, we work pretty much at the 
project and the program level, so that in many cases a well-
regulated comparison group study is a better means of 
evaluation in the earlier stages of the program where changes 
are occurring dramatically rather than just taking a snapshot 
through a random control test to see what the status is near 
the stage of scale-up.
    So I think we are using the proper instruments. I think we 
are getting the results that we need in order to establish that 
our programs are effective, and we work very closely with the 
Department of Education in scaling up our programs so that 
eventually they will be proven effective through random control 
testing as well.
    Mr. Lipinski. There is just basically a disagreement over 
the, what good testing, what good evaluation is. I am concerned 
that there is a--certainly a battle going on in terms of who is 
going to do our STEM education. Is it the Department of 
Education----
    Dr. Bement. Yeah.
    Mr. Lipinski.--or the NSF. I certainly believe that the NSF 
has shown, at least to me, that NSF has done a very good job of 
doing this over the years.
    Dr. Bement. I want to make one point clear, and that is 
that, first of all, even though Secretary Spelling's chaired 
the Academic Competitiveness Council, I was a very vocal member 
on that council as are a number of other agency heads. 
Furthermore, in the working groups that established the report 
that was presented at Congress last May, those working groups 
were either chaired or co-chaired by NSF staff. So we stand 
behind the recommendations in that report, and you will note 
that the recommendations do provide a flexibility for how to 
evaluate different types of programs. And, again, I would 
assert that we are in full conformance with the recommendations 
of the report.
    Mr. Lipinski. One other thing I wanted to raise. The 
National Nanotechnology Initiative only gets a two percent 
increase, which is actually below the inflation rate. Why is 
the NNI getting such a low increase, actually a decrease 
considering inflation?
    Dr. Bement. Well, we have a way of determining whether a 
program has begun to reach the flat part of a learning curve, 
and that is based on the quality of proposals that we receive 
in the program. And when the number of potentially 
transformative ideas or the number of excellent proposals begin 
to taper off, that is the time to start moderating the funding.
    Now, most of the priority in the NNI Program, in this 
budget is an increase in environmental health and safety 
research. And the reason for that is pretty obvious, and that 
is that in any new technology one has to be aware of health and 
safety considerations. NSF has been a leader in this program, 
in this regard for, since the beginning of the program. We have 
always held apart something of the order of seven percent of 
our total budget in order to look at EHS issues. And I feel the 
time has come to increase that because we are seeing a lot of 
variability in the research results and the test results on the 
effective engineered nano-particles on human cells and other 
factors.
    And a lot of that variability is just lack of rigorous 
characterization of the particles. And so we have to develop 
better instrumentation, better protocols, and better means and 
better standards. Incidentally, we are working with NIST in 
trying to back up some of the standards to reduce that 
variability so that we can have confidence in the results.
    Mr. Lipinski. Thank you. I see my time is up.
    Chairman Baird. Thanks, Dr. Lipinski.
    Dr. Bement, I applaud your defense of methodologies, and I 
will recognize Ms. Johnson in one second. I would just, as 
someone who used to teach statistics, to try to get folks to 
understand that the very premise of a test of statistical 
significance assumes random assignment and you are comparing 
the actual observed difference in your two subject groups with 
what might occur through random assignment, if you don't have 
random assignments, the premise of a test of statistical 
significance is really called into doubt. And there is a rather 
slavish dependence on this I think by the Department of 
Education, which in itself maybe symptomatic of some of the 
problems in our education system.
    Ms. Johnson.
    Ms. Johnson. I have always had great admiration for the 
National Science Foundation and felt that it was one of the 
most accountable agencies that we had and I think at this point 
one of the most important since we need this America COMPETES 
Act implemented. As I think about the future of the space 
program, of our high tech, all of the things that, even our air 
controllers, we need so many more people than what we are 
training, involved.
    Would you give me an idea of how much implementation you 
can do with the current budget that you are defending?
    Dr. Bement. Yes. Thank you. Our concern about this issue is 
more than just the level of funding and the number of programs 
but how those programs align themselves and provide synergy 
among the different programs.
    For example, in education in order to reduce wastes and 
leakage in the pipeline, we feel that a two plus two plus two 
approach is necessary, and this is recognized in our Innovation 
of Institutional Integration program, which is a way of 
aligning different programs by focusing on a particular 
strategy.
    The strategy here is to focus on the last two years of high 
school, the first two years of undergraduate training, and the 
second two years of undergraduate training. That is the two 
plus two. And of course, the first two years of undergraduate 
training also brings in the community colleges as well, and 
what we want to do is look at the critical junctures between 
those programs and get those programs aligned so that we can 
have greater success in retention but also pre-college or 
preparation at the secondary school level.
    So that is going to be a hallmark of our '09 initiatives in 
the budget, and we feel that this can be very effective.
    Ms. Johnson. In other words what you are saying is you are 
adequately funded for the beginning of the implementation.
    Dr. Bement. I think in the '09 budget we are happy with the 
way we have aligned the budget to meet those objectives. Yes. 
It will give us a good start.
    Ms. Johnson. Thank you very much.
    Chairman Baird. Just a couple of further questions if I 
might.
    My understanding is that there was a significant increase 
in the administration, administrative budget of NSF, and that 
that was very much needed to keep up with increasing demand and 
though it came under some assault in the appropriations 
process, I would urge my colleagues on this committee to not 
fall victim to that no matter how seductive the offset may seem 
to be, because if we are going to process these programs, we 
need people in the administrative offices. And I think NSF 
keeps its overhead relatively low.
    Would either of you like to talk about the current status 
and some of the changes that have been made in that area?
    Dr. Bement. Thank you. Well, as a result of the good action 
we had in the '08 budget, we are going to be able to start 
immediately in addressing some of the very critical staff 
shortages that we currently have, especially among program 
officers who are under tremendous pressure.
    But the Agency Operations and Award Management budget is 
more than just people and space. It deals with our pre-award 
activities as well as our post-award accountability for how 
programs are actually carried out. And it also includes 
adequate travel so that program officers can do post-award 
management.
    In addition to that it also supports security and all of 
our information technology programs that deal with E-
government, that deal with the essential application programs 
that we use to operate, namely our FastLane process, the new 
website, grants.gov, and also to try to automate the internal 
operations within the foundation in order to continually 
improve our productivity. And as the productivity increases, it 
has been so dramatic over the years, our proposal volume has 
gone up by almost a factor of three or so and yet our staff 
costs have been held at only a slight increase.
    Those are very worthwhile investments, and we get a lot of 
return on those investments, and we are still able to keep our 
overhead costs to within about five percent.
    Chairman Baird. Given the complexity of the issues that 
your folks have to deal with, the level of technical demand, 
the complexity of the programs that are put forward, the 
diversity of issues that NSF deals with, I think the, that you 
should be acknowledged and the appreciation extended from this 
committee.
    And as I say, we will do whatever we can to try to make 
sure the Administration, administrative budget stays----
    Dr. Bement. It is very much appreciated. Thank you.
    Chairman Baird. I want to also compliment you. I am pleased 
to see the water initiative. It just shocks me how little we 
know about water. We are made of water, the planet is largely 
made of water, at least the part we live near, and I believe 
water will become a signature issue of this century. And the 
amount of fresh drinking water available on this planet is very 
small, and it is diminishing through pollution, et cetera, and 
so I applaud NSF's directive in that area.
    I want to raise one question, and I don't really expect an 
answer here. I just want to, just for the record. First by way 
of compliment, we had the great privilege of going down to 
Antarctica and golly, the American people should see what a 
remarkable achievement has happened down there, the science is 
world class. The conditions under which it occurs is, are 
extraordinarily difficult, and your people are to be absolutely 
commended for the work, and I congratulate you on the opening 
of the new South Pole Center. It is quite an accomplishment, 
and we are proud of what our country can do in that area.
    A slight negative note or question I guess it is better 
put. I noticed in the budget report I don't know how much money 
was spent, but some art project that consisted of putting 
spheres out on the ice somewhere to simulate the heavens, I am 
probably one of the few or last people in this Congress to 
demagogue against humanities and art spending, but I have a 
sense now having been there of the logistics of getting 
equipment and people down to that part of the world. And I just 
would query for future budgetary needs whether or not such 
expenditures are maybe better left to the National Endowment of 
the Humanities or maybe better left to people who want to 
appreciate the heavens will look at the sky at night, Rocky 
Mountains or something, and you will get a sense of how they 
fairly much supercede the experience of a few spherical objects 
placed on the ice.
    So in future budgets you might want to have a look at 
what----
    Dr. Bement. Chairman Baird, you raise an issue I should be 
concerned about, so with your permission I would like to look 
into it and report back to you in writing.
    [The information follows:]
                       Information for the Record

    Dr. Bement's response to an inquiry by Chairman Baird regarding the 
Antarctic Artists and Writers Program (AA&W):

                      NATIONAL SCIENCE FOUNDATION
              Antarctic Artists and Writers Program (AA&W)

    The National Science Foundation has been responsible for managing 
the United States Antarctic Program (USAP) on behalf of the Nation for 
many decades now, pursuant to Presidential Memorandum 6646. As such, 
NSF supports research projects supported by NSF and other federal 
agencies in the field, coordinates the logistics support activities of 
DOD and several other agencies, and also maintains a modest, merit-
reviewed Antarctic Artists and Writers (AA&W) Program. The goals of the 
USAP are to expand fundamental knowledge of the region, to foster 
research on global and regional problems of current scientific 
importance, and to use the region as a platform from which to support 
research and education. The AA&W Program was established in 1980 in 
furtherance of these goals. It seeks to bring information about the 
USAP to the American public through the published work of artists and 
writers and therefore to complement the publication of scientific 
papers that speak primarily to the research community.
    Like all NSF programs, the AA&W Program subjects proposals to 
external review by peers--in this case established writers or artists. 
The review process informs NSF's decision concerning the merits of each 
proposal. Unlike NSF's regular programs, the AA&W Program does not 
provide funding for projects, but rather only access to our stations, 
field camps, and scientists in Antarctica.
    The project you asked about has resulted in a number of shows at 
art galleries and has been the subject of a number of public 
presentations at other forums, bringing a perspective on Antarctica to 
the public that is somewhat unique. The more typical result of an AA&W 
award has been the publication of books and articles in widely read 
journals.

    Chairman Baird. We are very proud and happy on this 
committee, Dr. Ehlers and myself, to steadfastly defend 
scientific projects in peer review on the Floor of the House. 
It would be more difficult for me to defend that particular 
project perhaps.
    One question I have as we looked at the increase in 
funding, one of the challenges NSF has faced and was 
acknowledged in the Rising Above the Gathering Storm is the 
growing disparity between availability of grants that actually 
get funded to researchers and applications. And I hear this 
from researchers in all branches of science. When they apply to 
federal grants, their probability of success is going down.
    Now, as we see an increase in funding, what happens, 
because we are also seeing an increase in demand. Are we still 
losing ground but losing ground at a slower rate than we used 
to lose it, or are we keeping pace now with, if we were to 
enact the proposed '09 budget?
    Dr. Bement. Well, if we enact the '09 budget, that will 
increase our success rate by about two percentage points, so it 
is not a one-budget cycle issue. On the other hand, that would 
greatly reduce the amount of churn in the system and churn is a 
very big issue, not only for the investigators but also the 
people that devote time for merit review. When they start 
seeing the same proposal over and over again, they wonder 
whether their time is being well spent.
    There are provisions in the America COMPETES Act that will 
help us in this matter, and we are also studying other ways in 
which we can, near the end of a fiscal year, hold proposals 
that are fundable over for funding in the succeeding fiscal 
year. And anything we can do to reduce the amount of churn 
would, of course, be in the right direction.
    Chairman Baird. I think that is so important for Members of 
this committee but for the entire Congress to understand is 
that, is the impact of worthwhile projects competing against 
other worthwhile projects, and when they don't get funded, 
especially early career investigators, really start, they 
actually give up at some point. And very promising lines of 
research and promising investigators may go in other directions 
that are probably damaging to our overall competitiveness.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Just a few additional 
questions.
    Dr. Bement, during your testimony you mentioned several new 
key investments. The Science and Engineering Beyond Moore's 
Law, Adaptive Systems Technology, and the Dynamics of Water 
Processes, which we just discussed a moment ago. Could you give 
us more details on how, what the projects are and how the money 
is----
    Dr. Bement. Yes.
    Mr. Ehlers.--going to be spent?
    Dr. Bement. The Science and Engineering Beyond Moore's Law 
recognizes that we are about to reach an endpoint because we 
are reaching quantum limits in silicon technology. And our 
estimate is that we will probably reach the end of Moore's Law 
in about 20 years, maybe sooner.
    So this is the time now that we should begin to look at 
alternate technologies in order to get on a new law. And there 
are promising technologies that will use, molecular 
electronics, for example, carbon nano-tube technology, quantum 
dot technology, even quantum computing.
    And so what we would like to do is increase our investment 
in these alternate technologies so that when the time comes, we 
will be prepared to keep going, and not only to make 
information systems more compact, but even more ubiquitous than 
they are today.
    And the second initiative, Adaptive Systems Technology. The 
human body can do things better than electrical and mechanical 
systems with regard to interpreting sensor signals, nerve and 
motor control, and also in terms of analytical thinking, which 
enables a human being to both anticipate and adapt to change.
    As we learn more about the brain, the nervous system, and 
the sensory systems, we feel that we can take that knowledge 
and, if you will, reverse engineer it, although that is a crude 
term. But, nevertheless, to embed some means of adaptation and 
anticipation in engineered systems.
    Let me just give you a couple of examples. We feel by using 
smart agents we can develop a much more robust electric power 
grid where it would be possible to anticipate upset conditions 
in time to actually take corrective action, either by load 
shedding or bringing on new capacity.
    In our computing systems and also in our networks we could 
use these adaptive technologies or anticipatory technologies to 
identify intruders in the systems and to encounter intruders in 
a much more natural and much more effective way.
    In human prostheses we have already begun seeing 
development of artificial retinas that will enable the blind to 
see and also artificial cochleas that will enable the deaf to 
hear. We already have amazing developments in connecting the 
brain to the nervous system in order to restore muscular 
activity and also nervous activity, to restore sensory 
activity.
    Now, we feel that these are emerging technologies that are 
not only being paid attention to in Europe and also Asia where 
the investments are going up, but I think we in this country 
have an opportunity to establish leadership and maintain 
leadership in these areas, and because of the broad range of 
scientific and engineering disciplines that NSF supports 
through interdisciplinary research, I think we can really make 
good progress in this area.
    In the case of the waters initiative, there are changing 
patterns in our hydrological systems caused by ecological 
changes, climate changes, and so forth. But also there are 
major changes in water usage. For example, we aspire to produce 
ethanol fuels from biomass. That requires an enormous amount of 
water, not only for growing the crops but also for processing 
the ethanol. Now, the question is over time is that 
sustainable? Will the water be where the biomass is, because 
the processing plants have to be reasonably close to the source 
in order to make it economically feasible.
    That is just one example, but there are many others. As we 
look ahead on a National basis there is a great possibility 
that there would be growing drought conditions in the central 
part of the country. There will be more violent storms and more 
water deposited in the coastal regions where it runs off and 
flows into the ocean. We don't have effective catchment to hold 
onto that water.
    So being able to do long-term forecasting, both on a 
regional basis and also on a local basis of what these changes 
may amount to, is critically important. Just another example 
would be the increasing flow of fresh water into the Atlantic 
Ocean from the Arctic Ocean and the seas around the Arctic 
Ocean just due to the melting of ice. That could lead to 
disruptive climate change.
    So the purpose of this initiative is to begin to put the 
computational tools in place to model these interactive events 
of the changes in the ecology and climate with the changes in 
the hydrological systems in order to inform other federal 
agencies that are engaged in this area as well, what changes 
are likely to come about and what meaningful strategies there 
may be for adaptation and mitigation in some of these changes.
    Mr. Ehlers. Is this new money or are you repackaging 
existing programs to try to achieve this?
    Dr. Bement. There are ongoing efforts in each of the 
directorates. This new money will link these together and form 
a more interdisciplinary approach to the problem.
    Mr. Ehlers. Okay. And so----
    Dr. Bement. So it is not just reshuffling the cards. It is 
adding another component to the overall program.
    Mr. Ehlers. I will be very interested in seeing the details 
on that. And I do have to add as a resident of the Great Lakes 
region, that no matter what you do with water, don't take a 
drop out of the Great Lakes. They have a militia prepared to 
deal with that.
    Dr. Bement. Maybe Michigan will be a biomass state of the 
future.
    Mr. Ehlers. Probably.
    Mr. Bilbray. Don't worry, Congressman. We will only take 
the Canadian water. How about that?
    Chairman Baird. Mr. McNerney. Dr. McNerney.
    Mr. McNerney. Thank you. Speaking of climate change, one of 
the objectives of the National Science Foundation in climate 
change is to provide products for decision-makers. Could you 
describe what products are available that have already been 
produced, what validation there is of those products, and----
    Dr. Bement. Uh-huh.
    Mr. McNerney.--what sort of products you see coming up in 
the future?
    Dr. Bement. Yes. One of the most important products that we 
support is the development of sophisticated climate models that 
are used to measure not only the rate of climate change but 
also the cause, the forcing functions that lead to climate 
change. A good bit of that work is done at the National Center 
for Atmospheric Research, NCAR, but it is supported at other 
centers as well, at the universities. And incidentally, that 
work feeds into the International Panel for Climate Change that 
got the Nobel Peace Prize. So we feel that we have a piece of 
that prize. I think it is the first peace prize that the 
National Science Foundation has supported.
    But beyond that, the work that we do in the polar regions, 
which was touched on in terms of looking at climate change over 
time, looking back over the previous glacier cycles to 
understand what regularity there may be in some of these 
changes is critically important. So we are investing in ice 
core drilling and also drilling in sediment beds and at the 
ANDRILL Project, which was done jointly with Germany and New 
Zealand, where we are drilling back five million years. That is 
important. We are now joining with the Russians to do similar 
drilling in El'gygytgyn Lake near Chokotka, on order to also go 
back to that period of time.
    But, you know, that just touches on a few areas of work and 
climate change. Our oceanography program is also engaged. Our 
neon community is looking forward to developing a national 
system to sense climate change through the National Ecological 
Observatory Network.
    And so it is not just the competition of models. It is the 
tools. It is the Arctic Observing Network that we hope to put 
in place in concert with a number of other nations to measure 
changes, not only in the climate but also in ocean circulation 
that affects the climate. And try and understand why in 
Greenland, for example, the center of the ice shield is growing 
because of more precipitation, whereas it is eroding in the 
costal margins just due to warming effects. And we find those 
effects throughout the Arctic Ocean as well as in Antarctica. 
So that is pretty much just a snapshot of some of the things 
that we are doing in this area.
    Mr. McNerney. That was my only question.
    Chairman Baird. Dr. McNerney. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I was glad you 
brought up the artificial retina. Extraordinary breakthrough. 
And you think about Star Trek and they, I forget the name of 
the character who had the special glasses, and I actually had 
the privilege of breaking bread with a young man who actually 
has that, those glasses and that artificial retina, and I just 
hope we don't become so jaded that we start not being in awe of 
these breakthroughs.
    But the Chairman talked about the water, and one thing we 
have learned in southern California that water itself is not an 
answer. You have got to have clean, cheap electricity to either 
transport the water or to purify it like we are doing with 
reverse osmosis.
    Dr. Beering, you mentioned in your testimony a taskforce on 
sustainable energy and about the meetings earlier this month 
and with the various stakeholders here. I wonder if you could 
bring us up to steam about if there is any preliminary 
statements or information with the forthcoming report, and give 
us an update on what the task force is sort of hitting on.
    Dr. Beering. Well, the taskforce has had its first meeting, 
and we are trying to find the dates where the group can get 
together for another meeting. We heard testimony from a variety 
of subject matter experts, and I am encouraged that there 
really is a great deal of activity, both by the public and the 
private sector, that is focusing on this entire set of issues. 
It isn't just the popular notions but some very scientific and 
fundamental things that are going on.
    But it would be too early for me to give you any specific 
answers.
    Mr. Bilbray. I just had a meeting with Mary Nichols. It is 
kind of funny we have switched roles. She was at EPA here, and 
I was at the Air Resources Board in California. Now she is 
Chairwoman at Resources and now I am over here. And one of the 
big--there are some big concerns we have raised, and I don't 
know if the Committee is looking at it or reviewing it, because 
we talk so much about the challenges from a science and 
engineering point of view, but is the Committee also looking at 
the challenges of the regulatory barriers to sustainable energy 
sources?
    One of the biggest concerns we have in California is the 
fact that we may have, as Californians tend to do, actually 
outlawed the process that could be addressing our problems. Is 
that even being discussed at all in this----
    Dr. Beering. I am glad you brought that to my attention. We 
have not discussed that yet.
    Mr. Bilbray. Well, I would say sincerely that is a real 
challenge.
    Mr. Chairman, when I hear people talk about the concept of 
sequestering carbon, I will tell you, as somebody who served on 
regulatory agencies, the concept of permitting a site two miles 
down under three states, I just, it boggles my mind that people 
really think that is doable under the existing process. And 
needing to understand that some of the challenges we are going 
to have with the science is just getting government the hell 
out of the way and allowing people to accomplish their goals. 
And excuse the terminologies but that is going to be the 
challenge.
    And the other challenge that I hope you guys are looking at 
is the political agenda getting in the way of scientific 
agendas, and you are going to hear me screaming bloody murder 
about this hell-bent run to go to corn ethanol as somehow it is 
sustainable, when, in fact, I think everybody is shaking their 
heads and just saying, well, everybody is jumping, so we might 
as well jump. And so I hope that the Committee, again, looks at 
a lot of these things and brings back a degree of sanity from 
the scientific point of view for us who are forced to have to 
at least consider the political game.
    Dr. Beering. Thank you very much.
    Mr. Bilbray. Thank you.
    Chairman Baird. Are you suggesting that the NSF change the 
Presidential caucus locations?
    Mr. Bilbray. Yeah. How about if we just change the primary 
agenda or calendar so that certain parts of the country don't 
dictate agendas for the rest of the Nation.
    Chairman Baird. Your points are well taken about the merits 
and the issues of regulatory concerns.
    I just have one final question. I have got to leave 
shortly, and I think others do as well.
    Regarding the Major Research Equipment and Facilities 
Construction lines in the budget, and you don't necessarily 
have to answer this here, but we observe that there is, as far 
as we can tell, no horizon projects listed in that section of 
the budget, and my understanding is typically one would look 
ahead and say, okay. So what big things are down the road that 
we might want to look toward? Is there a reason for that and--
--
    Dr. Bement. Yes.
    Chairman Baird.--if there are some projects you are looking 
at, when might the Committee and the Congress have a sense of 
what you see as on the, the next big thing so to speak?
    Dr. Bement. Thank you, Mr. Chairman. We will be glad to 
share that with you. There are horizon projects. Those are 
actively supported in our directorates, and they are actively 
discussed with the members of the Board. We made a conscious 
decision not to publish horizon projects in our facilities 
plan, primarily because it sets expectations that just because 
we are considering them that they are going to be supported 
until they are actually constructed.
    Now, some of these projects the Board may choose to 
accelerate, along with the Foundation. Some of them they may 
choose to bury in a shallow grave for awhile. Some they may 
decide to terminate. We need to retain that flexibility in 
turning over opportunities for major facilities until such time 
that we are ready to go through conceptual design review, 
preliminary design review, and final design review, and 
readying these projects for submission to the Congress for 
funding.
    Chairman Baird. I certainly respect the need for that 
flexibility. I just would make sure that there is an effort to 
give Congress as much heads up as----
    Dr. Bement. Yes.
    Chairman Baird.--especially on the budgetary front as we 
look ahead to what, you know, you look at Hadron, and that is 
not a cheap operation, and if we have some of those down the 
road, we got to have a look at that.
    Dr. Bement. Obviously it is in our best interest to do so, 
and we will.
    Mr. Ehlers. Just a quick one. I hate to harp on the 
temperature of the room, but it did remind me of the ice 
breaker question. What is the situation with the Coast Guard, 
and has all that been worked out or not?
    Dr. Bement. We still have a good working relationship with 
the Coast Guard. We give them a forecast of our needs. They 
give us their plan. We enter into negotiations on how we 
actually implement the plan. That is the ongoing process, and 
we will continue to use that process.
    Chairman Baird. Dr. Ehlers, I should interject. It is my 
hope that we can have a discussion with Ice Serve also and the 
Coast Guard Committee, and we could, we have sort of two main 
issues met by the Ice Breakers as you know; the Scientific 
Mission but also the National Security Mission and particularly 
with changes in the polar regions, especially the North Pole. 
We plan to have some meetings, probably informal meetings 
initially with the Coast Guard, NSF, and see how we can work 
this out because I am not the funding scheme makes a whole lot 
of sense.
    Dr. Bement. Well, we will certainly contribute to the 
science part of that discussion.
    Chairman Baird. Committee Members if they had additional 
information they would like to submit or our panelists, 
witnesses, and with that the hearing stands adjourned with the 
gratitude of the Committee. Thank you very much for your work.
    Dr. Bement. Thank you.
    Dr. Beering. Thank you.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Questions submitted by Chairman Brian Baird

Q1.  For the Graduate Fellowship Program, for the most recent year for 
which data are available and for the two preceding years, what 
percentage of total applications received were from women and from 
under-represented minorities, and what percentage of the awards were 
made to each of those groups?

A1. The requested details follow:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  Please provide a listing of the current staffing for the assistant 
director, division director and deputy division director positions at 
NSF showing whether the incumbent is a permanent federal employee or a 
rotator.

A2. For the assistant director/office head positions, nine are 
permanent federal employees and seven are IPAs. All 13 deputy director/
executive officer positions are held by permanent federal employees. 
For Division Director positions, 22 are permanent federal employees, 11 
are IPAs, and there are currently six vacancies. All 17 of the deputy 
division director/executive officer positions are held by permanent 
federal employees. There are four vacancies in this category.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q3.  Please provide an explanation of how the Research at Undergraduate 
Institutions (RUI) program is managed at NSF. How is the RUI program 
budget goal determined for a particular fiscal year and is there an 
individual that is responsible for ensuring that the budget target is 
achieved? How much flexibility do individual program officers have in 
encouraging and funding RUI grants? Is the program administered 
differently by the different directorates? What is the variation in 
number and amount of funding for RUI awards across the directorates?

A3. RUI is fully integrated into NSF's research programs. RUI proposals 
are evaluated and considered for funding in competition with all other 
proposals submitted in the same areas of research, using the program's 
usual merit review process.
    RUI is not a stand-alone program. NSF senior management will issue 
guidance in the budget process to highlight RUI and related activities. 
The FY 2009 Budget Request includes $35.23 for RUI. NSF program 
officers have flexibility in determining the portfolio mix of RUI 
awards and research grants in their programs. An NSF-wide coordinating 
committee ensures that program officers throughout all of the 
directorates understand the RUI guidelines and program goals.
    In addition to supporting research activities that include 
undergraduates, the RUI program allows researchers at predominantly 
undergraduate institutions to access state-of-the-art facilities that 
might otherwise limit their success in NSF competitions. Funding is 
provided for (1) individual and collaborative research projects, (2) 
the purchase of shared-use research instrumentation, and (3) work with 
NSF-supported investigators at other institutions--these are Research 
Opportunity Awards (ROA) supplements.
    All of NSF's research directorates provide researchers at 
predominantly undergraduate institutions with the opportunity to 
compete for RUI awards. Approximately 125-150 new RUI research project 
awards and about 20-40 new RUI equipment awards have been made each 
year over the past few years. BIO and MPS provide support for the 
majority of these awards. The majority of the approximately 100 ROA 
supplements made each year are supported by BIO. Over the past several 
years, RUI funding has been approximately $35 million each year.

Q4.  Please provide a summary of all international science and 
engineering cooperation activities at NSF, including the relevant 
budget allocations.

A4. International S&E research and education activities are funded by 
all NSF directorates and research offices. International implications 
are found throughout all of NSF's activities, from individual research 
awards and fellowships for students to study abroad, to centers, 
collaborations, joint projects, and shared networks that demonstrate 
the value of partnering with the United States.
    NSF's approach to international S&E is distributed and flexible, 
accommodating differences across the spectrum of NSF-funded 
disciplines, the diverse needs of specific communities within the 
United States and with colleagues around the world. A common element, 
however, is partnership with NSF's research and education constituency. 
Areas and opportunities are identified through consultation and through 
the proposal and merit review process. Proposals with international 
activities may be submitted to any NSF research or education program 
and to the special programs of NSF's Office of International Science 
and Engineering (OISE).
    As a result of its international portfolio encompassing projects in 
all S&E disciplines, NSF effectively partners with almost every country 
in the world. In fiscal year 2007, more than 4,200 NSF awards had an 
international component and these awards involved cooperative 
activities with 145 countries.
    Whereas it is not feasible to summarize all NSF-funded projects 
that have an international component in this response, NSF's 
international S&E cooperative activities generally fall into three 
broad categories:

Global research and education opportunities for U.S. students and early 
career scientists and engineers to gain professional experience in 
international teams

<bullet>  For example, the Research Experiences for Undergraduates 
program, an NSF-wide activity, gives undergraduate students the 
opportunity to engage in high-quality research, often at important 
international sites. One of these sites is CERN, the European 
Laboratory for Particle Physics in Switzerland, and one of the world's 
premier international laboratories. Undergraduate students work with 
faculty mentors and research groups at CERN, where they have access to 
facilities unavailable anywhere else in the world.

Global-scale research alliances, partnerships and S&E networks focused 
on a complex problems or individual disciplines

<bullet>  For example, NSF's Division of Materials Research within the 
Directorate for Mathematical and Physical Science supports the 
Materials World Network (MWN), a global collaborative aimed at 
fostering partnerships between materials science and engineering 
researchers at institutions around the globe, including institutions in 
Africa, Europe, Asia, and Australia. Through MWN, NSF and international 
partner agencies jointly solicit proposals for collaborative projects. 
Research is targeted at improving medical diagnosis, developing 
stronger materials for the housing and transportation industries, and 
more.

Support for large or distributed research facilities and infrastructure 
serving numerous scientists and engineers

<bullet>  For example, at the ends of the world, NSF coordinates nearly 
all of the U.S. scientific research in the Arctic and Antarctica 
through its Office of Polar Programs. In fact, NSF was designated as 
the lead federal agency for the International Polar Year (IPY) 2007-
2008. During this campaign, more than 100 countries undertook projects 
involving scientists, students, teachers, and the public to increase 
understanding of the polar region.

<bullet>  Additionally, in today's highly sophisticated, technology-
driven science, many international partnerships center around major, 
high-budget research facilities made possible only by combining the 
resources of more than one nation. Such international infrastructure 
projects play a key role in advancing S&E capacity worldwide. NSF 
leadership and proactive involvement in large international research 
projects helps ensure that U.S. S&E stays at the frontier. For example, 
NSF's facilities budget includes construction funds for the following:

        <bullet>  The IceCube Neutrino Observatory--the world's first 
        high-energy neutrino observatory--offers a powerful example of 
        an international, interagency research platform. Agencies in 
        Belgium, Germany, and Sweden have joined NSF and Department of 
        Energy (DOE) in providing support for IceCube, which will 
        search for neutrinos from deep within the ice cap under the 
        South Pole in Antarctica. Neutrinos are hard-to-detect 
        astronomical messengers that carry information from 
        cosmological events.

        <bullet>  The Atacama Large Millimeter Array, currently under 
        construction near San Pedro de Atacama, Chile, will be the 
        world's most sensitive, highest resolution, millimeter 
        wavelength telescope. The array will make it possible to search 
        for planets around hundreds of nearby stars and will provide a 
        testing ground for theories of star birth, galaxy formation, 
        and the evolution of the universe. ALMA has been made possible 
        via an international partnership among North America, Europe, 
        and East Asia, in cooperation with the Republic of Chile. NSF 
        is the U.S. lead on this ground-breaking astronomical facility.

        <bullet>  As part of the aforementioned IPY activities, NSF 
        serves as lead contributing agency for the Arctic Observing 
        Network (AON)--an effort to significantly advance our 
        observational capability in the Arctic. AON will help us 
        document the state of the present climate system, and the 
        nature and extent of climate changes occurring in the Arctic 
        regions. The network, organized under the direction of the U.S. 
        Interagency Arctic Research Policy Committee, involves 
        partnerships with the National Oceanic and Atmospheric 
        Administration, National Aeronautics and Space Administration, 
        Department of Interior, Department of Defense, Smithsonian 
        Institution, National Institutes of Health, DOE, and USDA. NSF 
        coordinates AON activities across the U.S. government, as well 
        as with international collaborators, including Canada, Norway, 
        Sweden, Germany, and Russia.

    Lastly, the Office of International Science and Engineering--the 
centerpiece of NSF's international activities--integrates Foundation-
wide activities and manages a broad range of programs that support U.S. 
scientists and engineers engaged in international research and 
education. In FY 2009, NSF proposes a budget of $47.44 million for 
OISE.
    NSF's international office has implemented specific programs to 
stimulate innovative international partnerships. The East Asia and 
Pacific Summer Graduate Research Institutes (EAPSI), International 
Research Fellowship, and Partnerships for International Research and 
Education (PIRE) Programs are examples of three OISE-supported programs 
that facilitate partnership across institutions and countries.
    The East Asia and Pacific Summer Graduate Research Institutes 
(EAPSI) Program enables U.S. graduate students to build collaborations 
with scientists and engineers working in the top research facilities in 
East Asia and the Pacific region. The eight-week institute programs are 
held at top research institutions in Japan, Korea, Taiwan, China, 
Australia, New Zealand, and Singapore. Over 1,600 U.S. graduate 
students have participated in the program since its inception in 1990. 
The program fosters a U.S. S&E workforce capable of operating in a 
global marketplace increasingly impacted by scientific developments in 
Asia and the Pacific Region.
    The International Research Fellowship Program supports 
approximately three dozen U.S. postdoctoral fellows for nine to 24 
months at foreign host institutions annually. The program's objective 
is to introduce U.S. scientists and engineers to cutting-edge 
international research opportunities in the early stages of their 
careers. Fellows' research projects involve international 
collaboration, the use of overseas instrumentation, and access to 
unique research environments in a wide range of fields, including 
biology, physics, engineering, geosciences, computer sciences, and 
social and behavioral sciences.
    In FY 2007, 39 fellowship recipients from 21 states were selected 
to conduct research in 21 foreign countries. After completion of the 
fellowship, the researchers return to jobs in academia and industry in 
the United States. Past fellows have reported that their experiences 
positioned them to build new collaborations with colleagues in their 
host country. These collaborations have led to foreign hosts of NSF 
International Research Fellows joining U.S. research teams.
    The Partnerships for International Research and Education (PIRE) 
Program is an example of a larger collaborative research activity 
supported by OISE. PIRE enables U.S. institutions to establish 
collaborative relationships with international groups or institutions 
to conduct research dependent upon international collaboration. The 
program catalyzes a cultural exchange in U.S. institutions by 
establishing innovative models for international collaborative research 
and education. PIRE also readies U.S. students to participate in 
international research collaborations.
    To date, the PIRE program has supported the work of 32 institutions 
in 23 states. Research collaborations with more than 40 countries have 
resulted. The U.S.-China PIRE project on electron chemistry and 
catalysis was listed in the Chinese media as one of the top ten S&T 
developments in China for 2006. The PIRE program supports research 
projects that nurture U.S. relationships with international 
counterparts.
    The progress of humankind will depend increasingly on the new 
knowledge of science and technology. The collaborative pursuit of new 
knowledge is a powerful tool for bringing people together, and NSF 
activities will continue to stimulate global collaboration.

    In response to a question from Congressman Lipinski on the 
rationale for providing only a 2.1 percent increase to funding for the 
National Nanotechnology Initiative (NNI) in a year in which the 
directorates with the most significant role in the initiative are 
getting 20 percent increases, Director Bement indicated that the 
leveling of funding results from a decline in the number of meritorious 
research proposals.

Q5.  What have been the trends over the past three years in the numbers 
of proposals received and in the proposal funding rates across the 
various NNI program component areas? Are there significant differences 
in proposal pressure or funding rates among the directorates supporting 
research that is part of the NNI portfolio?

A5. Proposal and funding rates are available for a few solicitations 
related to NNI over the past three years. These rates are comparable to 
those of the Engineering Directorate which provides the majority of 
funding for these solicitations. There has been a decline in proposals 
submitted, in part, because of submission limitations. For the 
Nanoscale Interdisciplinary Research Teams (NIRT) program, 518 
proposals were received in 2005 and 260 in 2007; funding rate was 10 
percent in 2005 and 11 percent in 2007. For the Nanoscale Exploratory 
Research (NER) program, 372 proposals were received in 2005 and 274 in 
2007; funding rate was 22 percent in 2005 and 15 percent in 2007. In 
comparison, the Engineering Directorate had an average proposal level 
of 6,800 and a funding rate of 14 percent during the same three year 
period.
    The funding level requested for NNI is the result of the priority 
setting process that takes place among the participating directorates.
    Information on funding rate by Program Component Area (PCA) is not 
readily available, however, because the majority of NSF's NNI funding 
is provided through core programs. NSF Program Directors report that 
funding rates and proposal pressure for NNI research have been 
comparable to the overall levels in their respective programs over the 
past three years.
    NSF supports fundamental research, infrastructure, and education in 
all areas of nanoscale science and engineering, excluding research 
involving clinical testing. Activities are guided by long-term 
objectives which may be used by industry, the community, and other 
agencies. NSF supports over 3,000 active awards, 24 large centers and 
trains over 10,000 students and teachers each year. The modes of 
support include single investigator, multi-disciplinary team, center, 
and network awards.

Q6.  Is there any significant difference from fiscal years 2008 to 2009 
in the allocation of NNI funds or the focus of research supported 
within each of the directorates with NNI designated funding? Will NSF 
readjust priorities within the NNI portfolio to address areas of 
greater research promise?

A6. NSF efforts within the NNI through the NSF Nanoscale Science & 
Engineering Priority Area (FY 2001-FY 2006) were directed at 
establishing and fostering the growth of a newly emerging 
nanotechnology community. As this community blossomed, nanotechnology 
research has been transitioned and is now embedded and pervasive 
throughout NSF core programs. As a result of these efforts, other 
federal agencies with a more applied research mission are now in 
position to partner with industry to further the basic research 
knowledge gained from prior support.
    NSF has an annual process of establishing its priorities on 
nanoscale science and engineering (NSE) research that includes 
proposals from the internal NSE Working Group, input from workshops and 
meetings with the grantee communities, interagency coordination through 
the National Nanotechnology Initiative--the Nanoscale Science, 
Engineering and Technology Subcommittee (NSET) of the National Science 
and Technology Council (NSTC), international context, industry, and 
non-governmental organizations (NGOs). As a result of this input, an 
increase in focus for FY 2009 is planned in the following areas:

<bullet>  Research on the application of quantum mechanics and self 
assembling

<bullet>  Research on integrated nanosystems that:

        <bullet>  will support key applications of nanotechnology, such 
        as petascale computing

        <bullet>  design-in properties by manufacturing materials from 
        the nanoscale

        <bullet>  regenerate human tissue and organs from the 
        nanoscale; designing systems of nano-sized sensors

        <bullet>  selectively filter harmful particles from water; and 
        manufacturing devices, such as solar cells, that efficiently 
        convert and store renewable energy

<bullet>  The use of nanotechnology for addressing sustainable use of 
water, energy and materials

<bullet>  Nanoscale processes in the cell, at the intracellular level, 
in the neural systems, at the interfaces between biotic and abiotic 
materials

<bullet>  Developing the network around a planned center to study the 
environmental implications of nanotechnology

<bullet>  Including environmental, health and safety aspects of 
nanotechnology in additional core programs

For the new initiative Science and Engineering Beyond Moore's Law:

Q7.  How does the initiative relate to current activities supported 
under NNI and will funding now allocated to other areas within the NNI 
portfolio be reallocated to this initiative?

A7. This initiative will be partially funded from the NNI funds 
allocated to nanoelectonics and particularly beyond Complementary Metal 
Oxide Semiconductor (CMOS), and partially new funds in MPS, ENG and 
CISE for the software, cyberinfrastructure, and other related aspects. 
In ENG and CISE, this activity is an extension of the existing 
activities beyond-CMOS initiated in FY 2004 in collaboration with the 
Semiconductor Industrial Association (SIA) and the Semiconductor 
Research Corporation (SRC).
    A working definition of ``nano'' suggests a range of dimensions 
between about one and 100 nm, with physical behavior arising as a 
consequence of the size. The bulk of the current NNI science portfolio 
falls into the nanoscale region, within the context of the working 
definition, and will not be subject to reclassification. The approach 
by MPS will be to classify only newly funded activities as SEBML, with 
any potential overlap with NNI only occurring for special cases that 
might satisfy the working definition.

Q8.  What are the current funding levels, by directorate, for 
activities in nanoelectronics?

A8. NSF is currently investing approximately $100 million per year in 
nanoelectonics and the related topics of nano-magnetics and nano-
optics. It is estimated that the Directorate for Engineering (ENG) 
invests approximately $45 million, Mathematical and Physical Sciences 
(MPS) approximately $45 million, and Computer Information Science & 
Engineering (CISE) approximately $10 million.

Q9.  Will NSF issue a request for proposals for this initiative?

A9. Currently NSF has no plans for a specific SEBML solicitation in FY 
2009. NSF has been active in advertising this new potential investment 
to the science and engineering community and anticipates a large volume 
of unsolicited proposals.

Q10.  Your office provided a summary of FY 2008 consolidated 
appropriations impacts. Please expand on facilities reduction impacts, 
including staff layoffs at the National Center for Atmospheric 
Research, the National Superconducting Cyclotron Laboratory, and any 
other NSF-supported facilities that are reduced in FY 2008.

A10.

Directorate for Mathematical and Physical Sciences

Cornell Electron Storage Ring (CESR)
    NSF provided support for the operations and maintenance of the CESR 
storage ring at Cornell University and supported operations of the CLEO 
detector. Impacts of omnibus funding include these areas:

<bullet>  NSF support for CESR operations was scheduled for a phase-out 
over fiscal years 2008 and 2009. Staff reductions were anticipated as 
part of the phase-out plan. The FY 2008 Omnibus bill resulted in a $1 
million reduction over FY 2008 Request in CESR operations funding, 
which accelerated the phase-out, leading to the reduction of 10 
positions beyond those already planned.

<bullet>  The CLEO detector at Cornell had been scheduled to cease 
operations at the end of March, 2008. As a result of the Omnibus, 
operations were terminated on February 29, one month ahead of schedule. 
Additional calibration runs planned for this period would have improved 
the assurance in the analysis of the data.

Large Interferometer Gravitational Wave Observatory (LIGO)
    LIGO operated at $33 million in FY 2007. The FY 2008 current plan 
level is $29.5 million. This funding decrease from FY 2007 to FY 2008 
was planned as part of the approved construction start of AdvancedLIGO 
(AdvLIGO). However, because AdvLIGO did not begin until April 2008, 
LIGO continued to fully operate for six months. Although planned 
`savings' were available to support these operations during this time, 
due to the Omnibus, about $1 million of these funds were diverted for 
other uses and not available for LIGO.

National Astronomy and Ionosphere Center (NAIC) and Arecibo Observatory
    The FY 2008 current plan amount of $12.15 for NAIC is about level 
with FY 2007 funding. However, within this total the base operations 
budget for the Arecibo Observatory has been reduced in FY 2008 relative 
to FY 2007, following recommendations of the AST Senior Review. This 
reduction is not apparent because of the need to cover personnel 
termination costs and other one-time costs required to implement the 
recommendations of the Senior Review. The FY 2009 Request for NAIC is 
reduced to $11.40 million ($9.6 million from the Mathematical and 
Physical Sciences Directorate and $1.8 million from the Geosciences 
Directorate).

National High Magnetic Field Laboratory (NHMFL)
    The FY 2008 current plan for NHMFL is $26.5 million, or $2.5 
million less than the FY 2008 Request. The FY 2009 Request increases 
funding by $5 million, for a total of $31.5 million. This increase in 
FY 2009 would bring support back in line with the funding schedule 
outlined in the cooperative agreement, or an estimated $162.0 million 
over five years.

National Optical Astronomy Observatory (NOAO)
    Impacts of FY 2008 omnibus funding include:

<bullet>  Postponement of some infrastructure improvement projects 
recommended by the recent Astronomy Senior Review and begun in FY 2007. 
For example, at Cerro Tololo Interamerican Observatory in Chile, the 
construction of a mountaintop clean-room, new detector array 
controllers (electronics) for some of the older instruments, and a new 
calibration system have all been postponed until funds are available in 
future years. At Kitt Peak National Observatory in Arizona, 
modernization of telescope control electronics and improvement of the 
support system for the Mayall 4-m telescope's primary mirror, as well 
as the acquisition of new guide cameras have been similarly delayed.

<bullet>  Exhaustion of NOAO's Director's reserve funds. For example, 
the Director holds a small portion of the Observatory budget in 
'reserve' to provide merit raises, promotion raises, peso/dollar 
exchange rate adjustments, and similar one-time uses. By depleting this 
fund, the Director has reduced the merit raise pool modestly and the 
promotion pool significantly and has lost the small but helpful 
capability he had for addressing fluctuations in the Chilean peso/
dollar exchange rate.

<bullet>  Three to five vacant positions will be left unfilled.

<bullet>  Reduction in the support of Giant Segmented Mirror Telescope 
(GSMT) activities funded by the base NOAO program. This will result in 
the deferral of several GSMT activities to future years. For example, 
one activity deferred until FY 2009 is the identification of technical 
areas (e.g., durable mirror coatings) in which design and development 
work would be helpful to both current U.S. project teams.

<bullet>  Reduction in the support of Large Synoptic Survey Telescope 
(LSST) activities funded by the base NOAO program. NOAO has both 
dedicated LSST funding from NSF and allocated LSST funding in the base 
program budget. In FY 2008 NOAO will direct its LSST expenses to the 
dedicated LSST account rather than use the base budget account. This 
reduces base budget expenditures from those anticipated in the 
Congressional Request in accord with the level funding for FY 2008.

National Solar Observatory (NSO)
    In FY 2008, the Advanced Technology Solar Telescope design project 
faces a shortfall of $700,000. While the Division of Astronomical 
Sciences (AST) is working to find a solution, which may include 
reductions in other programs within the division, AST will also need to 
delay or suspend several project-related contracts.

National Superconducting Cyclotron Laboratory (NSCL)
    Substantial impacts include: reduction of six to eight staff 
positions, delayed procurements of cutting edge equipment, curtailment 
of already scheduled beam time and investigator experiments, delay of 
final theses for Ph.D.s candidates, and cancellation of a summer 
workshop for promising undergraduates from eight collaborating 
colleges.

Directorate for Geosciences

Academic Research Fleet
    The FY 2008 funding level constrains resources for the fleet; 
however, schedule shifts in ocean sciences construction projects funded 
through the Research and Related Activities account, in particular the 
delay in construction of the planned Regional Class Research Vessels, 
has enabled the redirection of some funding to ship operations and will 
allow NSF to support approximately 2,300 ship days at sea, 
approximately the same number as 2007.

Earthscope
    NSF has implemented a phased funding plan to support the operation 
of Earthscope that reduces the impact of the FY 2008 appropriations on 
this facility. Earthscope operations support is awarded at the end of 
the year to support operations for the following year. NSF anticipates 
compensating for any potential shortfall with FY 2009 funding.

National Center for Atmospheric Research (NCAR)
    NCAR reduced its NSF-supported workforce by 30 positions. This 
reduction was accomplished in several ways: terminating jobs, moving 
staff to other funding sources, and not filling position vacancies.

Office of Polar Programs

    OPP anticipates deferring several activities critical to ensuring 
resupply of the Antarctic, leaving the USAP at risk for disruptions to 
the U.S. presence in Antarctica. These include:

<bullet>  Delayed completion of additional fuel storage capacity at 
McMurdo Station that would provide storage adequate to meet science and 
operations needs for two seasons in the event of a failure of the ship-
borne resupply effort ($3.8 million);

<bullet>  Delayed completion of the South Pole Traverse project that 
was instituted to diversify the means of delivering fuel and cargo to 
the South Pole, including delivery from locations other than McMurdo, 
and to reduce the cost of those deliveries. As a result, the Traverse 
will operate at one third capacity until FY 2010 ($4.7 million);

<bullet>  Delayed commencement of plans to replace the current pier at 
Palmer Station that is critical to continuity of cargo and personnel 
embarkation/debarkation ($2.17 million).

    Upgrades for science support at South Pole Station will also be 
deferred ($4.9 million):

<bullet>  The planned TDRSS (Tracking and Data Relay Satellite System) 
upgrade at South Pole Station will be deferred, delaying development of 
the back-up broad bandwidth capabilities needed to transmit large data 
sets that are generated by major science projects. Until this upgrade 
is completed, the USAP would not be in a position to shift to TDRSS 
Flight-3 (F-3) if TDRSS F-1 were to fail. In that case, communications 
capabilities at the South Pole would be severely limited.

<bullet>  The 10m telescope has been completed and is operational. 
However, shielding the telescope from ground ``noise'' will 
dramatically improve the sensitivity of the telescope. Planned 
construction of the shield will be deferred, reducing operational 
efficiency.

    Across-the-board reductions ($6.85 million) were made in budgets 
for labor, maintenance, and equipment replacement. While operational 
requirements will be met, there likely will be erosion in preventive 
maintenance and a degradation in equipment performance. Deferring 
portions of projects to replace day tanks, to provide secondary 
containment for station and field fuel storage systems, for fuel piping 
systems and for the vehicle refueling facility at McMurdo will increase 
environmental risks and delay the expected fuel conservation benefits 
of these projects.
    Funding for USCG icebreaker support will be reduced ($4 million). 
Attempts will be made to limit the impact of a budget reduction on the 
Healy. Therefore it is likely that some maintenance currently planned 
by USCG for the Polar Sea would be deferred.
    The suite of software systems used to manage personnel and cargo 
movements in the USAP was designed decades ago and is inefficient. 
Planned replacement of these systems will be deferred ($1.0 million), 
increasing risks due to supportability and security vulnerabilities.
    The USAP will not be able to provide the advanced funding ($1 
million) required to secure contracts for planned additional aircraft 
support in the 2008/2009 season, impacting International Polar Year 
projects that were scheduled to use these additional assets. For 
example, the Pine Island/Thwaites Glacier sector of the West Antarctic 
Ice Sheet study, and setting out instrumentation for PoleNet that would 
provide ground truth for satellite-based estimates of ice mass change 
will be deferred. Both of these projects are related to identifying the 
contribution of ice sheets to sea level, a major unknown for climate 
change models.
    At Toolik Field Station in Alaska, deferral of planned upgrades 
($750,000) will result in the continued use of non-code compliant 
facilities, thus limiting the ability to perform winter science. The 
facilities are also inefficient, contributing to high fossil fuel usage 
and excessive environmental impacts. Deferred procurement of switch-
gear ($1.5 million) capable of supporting 50 percent of the (yet to be 
installed) renewable energy sources at Summit Station in Greenland will 
result in similar impacts and ever increasing costs. Additionally, 
reducing pollution from diesel generators would greatly enhance the 
quality of atmospheric observations taken at this site that inform 
climate change model prediction.

Q11.  Please provide a list and description of all horizon projects 
under consideration as part of the current major research facilities 
plan.

A11. While the 2009 Budget Request does not include so-called horizon 
projects, the items listed below represent ideas and possible future 
opportunities identified by the research community for development of 
large-scale research infrastructure. Many of these ideas may never 
mature and others not yet conceived will emerge.
    Water systems: This explores environmental research on human-
stressed water systems that may lead to development of a distributed 
research facility comprising interacting field sites and an integrating 
cyberinfrastructure.
    Coherent X-ray light source: The energy recovery linac is a 
coherent x-ray light source with the potential for enabling new types 
of scientific investigations that cannot be done using current x-rays 
sources, and impacting many scientific disciplines such as chemistry, 
biology, condensed matter and materials physics, and geology and 
geophysics.
    Underground science: A facility to provide research opportunities 
in science and engineering in the deep underground environment. The 
scientific program would provide investigations in a wide array of 
subjects driven largely by physics, including nuclear physics, nuclear 
and particle astrophysics, and accelerator- and non-accelerator-based 
particle physics.
    Giant telescope: This general purpose telescope of unprecedented 
size would provide significant improvements to current technologies and 
allow it to study galaxies in formation, probe proto-stellar disks, and 
perhaps image planets orbiting nearby stars. It was the highest 
priority ground-based recommendation in the 2001 NAS decadal survey 
report ``Astronomy and Astrophysics in the New Millennium.''
    Large survey telescope: The telescope would produce the deepest, 
widest-field image of the sky ever taken along with daily catalogs of 
moving and transient objects. Among the principal science drivers are: 
understanding the physics of dark energy and dark matter; detection of 
moderate redshift supernovae; detection and cataloging of small bodies 
in the solar system; studies of the distances and motions of stars in 
the solar neighborhood; measurement of the kinematics and structure of 
the galactic halo; and opening the time domain. Construction of this 
instrument was the third-ranked major initiative in the 2001 NAS 
decadal survey report ``Astronomy and Astrophysics in the New 
Millennium.''
    Next generation radio telescope: Key radio astronomy science 
drivers include: extreme tests of general relativity with pulsars and 
black holes; evolution of galaxies, cosmology, dark matter, and dark 
energy; probing the ``Dark Ages''--the first black holes and stars; 
searching for extrasolar planets and life; and the origin and evolution 
of cosmic magnetism. Technology development for this possible facility 
was the third-ranked moderate initiative in the 2001 NAS decadal survey 
report ``Astronomy and Astrophysics in the New Millennium.''
    South Pole Station communications: Sophisticated experiments, not 
envisioned when the recently-dedicated South Pole Station was designed 
a decade ago, require increased communications capability and 
reliability with a focus on moving from the current 12 hours per day 
provided by aging satellites, to continuous high-bandwidth 
connectivity, in order to fully realize the South Pole's research 
potential and to be able to more effectively respond to medical 
emergencies.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Would you please provide us with more specific details on the 
Teacher Initiatives within the EHR Directorate?

A1. EHR proposed a new research and development thematic priority in 
the FY 2009 Request--Teacher Education in STEM: Enriching Knowledge and 
Practice. It is designed to advance knowledge and practice in the 
preparation of K-12 STEM teachers and to encompass the entire 
continuum--from pre-service education, to induction, to continuing 
professional development. Ideally, this strategic approach will subsume 
many of EHR's STEM programs under a rubric that creates linkages among 
the four divisions, allowing shared responsibilities and programmatic 
management for the teacher education continuum. The effort will help 
NSF meet the teacher preparation goals of the American Competitiveness 
Initiative (ACI), which stress the criticality of replacing the 
Nation's aging teacher corps, reducing attrition of STEM teachers, and 
broadening participation in STEM teaching.
    This integrative effort is grounded in research and practice, 
builds on current knowledge while addressing critical issues and gaps 
in teacher education, and expands current and prior efforts to enable 
STEM teacher learning. It will address a number of objectives, 
including assuring that our nation's K-12 teachers are: proficient in 
STEM concepts and topics; confident in their own grasp of STEM content; 
life-long learners of this content; aware of rapidly changing STEM 
disciplinary content; able to guide and assess STEM learning in age-
appropriate ways; confident in the use of cyber-enabled tools; prepared 
to engage an increasingly diverse student population; and supported by 
STEM faculty, in collaboration with teacher education faculty and 
practitioners.
    All of these objectives require a research knowledge base about 
STEM teacher learning that will serve as a foundation for improved 
models of teacher education. A rigorous evaluation component, both at 
the project level as well as program-wide, will measure outcomes in 
terms of increased production of well-qualified teachers; knowledge and 
dissemination of proven strategies that contribute to this production; 
and evidence of a relationship between teacher education components and 
improved K-12 student learning. Research questions will address new 
areas of national importance concerning teacher preparation, induction, 
and professional development.
    Examples of specific programs within EHR that support teacher 
education efforts follow:

        <bullet>  The Robert Noyce Scholarship program (Noyce) directly 
        addresses the need to provide support that attracts students of 
        the STEM disciplines into K-12 teaching and seeks to increase 
        the number of K-12 teachers with strong STEM content knowledge 
        who teach in high-need school districts.

        <bullet>  The Math and Science Partnerships (MSP) engage school 
        districts and higher education in large scale efforts to 
        improve K-12 STEM teaching, working primarily with in-service 
        teachers, but providing programs for pre-service teachers as 
        well.

        <bullet>  The NSF Graduate Teaching Fellowships in K-12 
        Education (GK-12) engage STEM disciplinary graduate students in 
        K-12 classrooms to provide content support for the K-12 
        teachers.

    Further, there are programs that have other principal objectives 
but also make significant investments in teacher education, 
particularly the Louis Stokes Alliances for Minority Participation 
(LSAMP) program, and the Advanced Technological Education (ATE) 
program. Teacher Education is also addressed through the Division of 
Undergraduate Education's core program, Course, Curriculum, and 
Laboratory Improvement (CCLI,) which seeks to improve STEM teaching and 
learning for all undergraduates, including the many prospective 
teachers who are part of the undergraduate population. Finally, there 
are two programs that aim to increase understanding of effective 
teaching at all levels as their core objectives: Discovery Research K-
12 (DRK-12) and Research and Evaluation on Education in Science and 
Engineering (REESE).

Additional Program Details:

Noyce
    The Robert Noyce Teacher Scholarship Program provides funding to 
institutions of higher education to provide scholarships, stipends, and 
programmatic support for undergraduate students majoring in science, 
mathematics, engineering, or technology and for STEM professionals to 
enter and complete teacher credentialing programs. Scholarship and 
stipend recipients are required to complete two years of teaching in a 
high need school district for each year of scholarship or stipend 
support. Projects include partnerships with school districts, 
recruitment strategies, and activities to enable the recipients to 
become successful elementary or secondary math and science teachers. 
For example, Noyce Scholars are typically mentored by master teachers 
and college faculty while they are preparing to become teachers and as 
they begin teaching in the schools.

MSP
    One of the key goals of MSP partnerships is to increase the number, 
quality, and diversity of mathematics and science teachers. With MSP 
support, STEM faculty and their departments, often in collaboration 
with colleagues in the School of Education, have developed new, 
coherent and long-term courses and programs to enhance the content 
knowledge of current and future teachers. Teachers-in-residence 
(teachers on long-term leave and/or sabbaticals) have come on to 
college campuses to broaden discussions of teaching and learning, and 
to support new efforts in teacher preparation. STEM professional 
learning communities, bringing together K-12 teachers and higher 
education faculty, are new exemplars in professional development. 
Schools have come to utilize the leadership skills of new Teacher 
Leaders, and demonstrated stronger school-level achievement outcomes 
when the Leaders have strongly defined roles and relationships with 
classroom teachers.
    The 40 Comprehensive and Targeted Partnership projects report that 
over the life of their awards they will impact 137,000 teachers of 
mathematics and science in the 576 school districts that are in their 
partnerships. By the 2005-2006 year, 58 of their higher education 
partners had undergone pre-service teacher program revision as a part 
of MSP. Three hundred forty courses have been changed or are being 
changed to impact the future teacher workforce; over 21,000 future 
teachers are in the pre-service courses modified as a part of the MSP 
effort.

Graduate Teaching Fellows in K-12 Education
    Graduate Teaching Fellows in K-12 Education (GK-12 Fellows) spend 
up to 15 hours a week during a full academic year working closely with 
teachers in their classrooms. The fellows bring cutting edge research 
and expertise in the newest instrumentation and technology into the 
classrooms. According to research on professional development, this 
type of embedded professional development that is both ongoing and that 
supports the curriculum is most effective. The fellows also model the 
life of a scientist for younger students who might not know other 
scientists. The program has impacted more than 8,500 teachers and more 
than half a million K-12 students. Approximately 70 percent of the K-12 
settings where Graduate Fellows are placed as ``scientists in 
residence'' are rural and urban schools. For this reason, GK-12 has the 
greatest impact providing high-end science content knowledge to 
teachers and students in some of the neediest areas of education: 
inner-city schools that are usually low performing and in need of 
resources and expertise; and, remote schools far removed from ready 
access to supplies and specialists.

ATE and Teacher Education
    Teachers are part of the technological workforce of the future. 
Many future teachers will receive STEM preparation in community 
colleges. Each year ATE supports teacher preparation projects that help 
prepare a K-12 workforce that is skilled in teaching science and 
mathematics, understands the technological workplace, and can give a 
variety of approaches for solving real world, technology-related 
problems using design processes and principles. For example, Normandale 
Community College in Minnesota collaborates with Minnesota State 
University Mankato to prepare highly qualified K-8 teachers. 
Pellissippi State Technical Community College in Tennessee is 
coordinating a statewide effort among seven community colleges and two 
universities to develop a common core of technology, science, and 
mathematics courses for future elementary school students. While 
teacher preparation has been a small part of the ATE portfolio, the 
program has consistently supported several such projects each year. 
There is now a significant portfolio involving many institutions. The 
American Association of Community Colleges plans to publish a 
compendium of these projects in summer of 2008.

LSAMP Bridge To Teaching (2006 Pilot Project)
    The Louis Stokes Alliances for Minority Participation Program 
``Bridge to Teaching (BT) Initiative'' piloted a teacher education 
training program in FY 2006. The initiative funded a graduate degree 
bridge activity at Arizona State University, University of Alabama-
Birmingham, and City College in New York. The initiative broadens 
participation through the attraction of LSAMP baccalaureate under-
represented minority students in STEM disciplines. Additionally, this 
activity seeks to remove minority students' hesitancy about entering 
graduate school, and the fear of creating additional financial 
indebtedness associated with initial graduate education. At the 
conclusion of the 12-24 month duration each successful participant is 
awarded a Master's degree and teacher certification.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The America COMPETES Act created a program called, PALS, or the 
Partnership for Access to Laboratory Sciences. Will there be any grant 
solicitations under this pilot program in the current fiscal year? If 
not, please provide a description of

        <bullet>  any current activities that meet the goals of PALS; 
        and

        <bullet>  how you will implement the program as intended in 
        fiscal year 2009.

A1. There will be no grant solicitations under this pilot program in FY 
2008. Before proceeding with a PALS program, it is important for NSF to 
determine the most effective way to meet the intent of the PALS 
provision. Two existing programs that have the capability for doing 
this are the National Science, Technology, Engineering and Mathematics, 
Education Digital Library (NSDL) and the Information Technology 
Experience for Students and Teachers (ITEST).
    This approach will allow NSF to address the objectives of PALS by 
initiating or incorporating critical components into existing programs, 
once it has been determined how to proceed most effectively.

Q2.  America COMPETES also directed the National Science Foundation to 
work with the National Academies to publish a Rising Above the 
Gathering Storm-style report on minority participation in STEM. Will 
you report back to the Committee on the status of this effort?

A2. Assistant Director Cora Marrett has already met with the Michael 
Feuer, National Academy of Sciences (NAS), to discuss an arrangement in 
which NAS provides expert guidance to NSF on mutually agreed upon 
topics via reports and studies. The report on diversity required in the 
America COMPETES Act was part of this initial discussion.
    In addition, NSF supports and produces two separate biennial 
reports on this topic: the report from the Committee on Equal 
Opportunity in Science and Engineering (CEOSE) and a report entitled 
``Women, Minorities, and Persons with Disabilities in Science and 
Engineering'' (www.nsf.gov/statistics/wmpd/about.htm). NSF reporting on 
the latter topic is mandated by the Science and Engineering Equal 
Opportunities Act (Public Law 96-516). The data on the web site are 
updated frequently and a completely new report is issued every two 
years. NSF also provides considerable support to CEOSE (The Committee 
on Equal Opportunity in Science and Engineering), which uses this 
information to advise NSF on its efforts to promote diversity and equal 
opportunity in science and engineering as stipulated by the Science and 
Engineering Equal Opportunities Act of 1980. A biennial report is made 
to Congress. These reports make full use of NSF data.

Questions submitted by Representative Daniel Lipinski

Q1.  How does the NSF plan to implement recently authorized America 
COMPETES programs in light of recent budgetary shortfalls? Can you 
point to tangible evidence, such as a projected decrease in the amount 
of NSF supported researchers that is a direct result of the recent 
budget shortfalls?

A1. Immediately after the ACA was signed into law, a working group was 
assigned to develop options and recommendations on how to implement the 
provisions of the Act pertaining to NSF. The working group is 
developing plans for ramping up new programs or redesigning existing 
programs, processes and procedures to implement the statute.
    To date, NSF has already implemented some of the Act's provisions, 
such as:

    Section 7036, Major Research Instrumentation: With regards to cost 
sharing for the Major Research Instrumentation Program, implementation 
actions included issuance of a Dear Colleague Letter to the community, 
revision of the solicitation, and conducted briefings.
    Section 7037(a), Limit on Proposals: For programs that require 
preliminary proposals as part of the selection process, and that also 
limit the number of pre-proposals that may be submitted by an 
institution, NSF allows the subsequent submission of a full proposal 
based on each pre-proposal that is determined to have merit. It should 
be noted that this was already the Foundation's policy and only one 
solicitation limited the number of full proposals that could be 
submitted based on the outcome of the preliminary proposal competition. 
This solicitation will be corrected when it is next issued. NSF is now 
in compliance with this provision of the Act.
    We are also in the early stages of implementing several other 
sections, such as:

    Section 7018, Meeting Critical National Science Needs: NSF will 
recommend to the National Science Board (NSB) that the relevance of 
critical national needs be made explicit in the NSB-approved criteria, 
and that reviewers assess this in the review of proposals submitted to 
the Foundation.
    Section 7008, Postdoctoral Research Fellows: NSF will implement the 
statute as enacted and also plans to encourage Principal Investigators 
to apply this approach to mentoring graduate students.
    Section 7020, Cyberinfrastructure: NSF is beginning to identify the 
``scientific research requirements of broadband access,'' and to 
collect recent data that describe the current status of broadband 
access at relevant institutions. In fashioning a plan, we are gathering 
input from academic institutions, State and local government, and 
private sector organizations, as well as organizations like Educause, 
Internet2 and NLR whose missions are directly relevant to support for 
broadband access at colleges and universities.
    Section 7026, Laboratory Science Pilot Program: NSF will utilize 
its investments in cyber-enabled learning to test effective ways for 
enabling authentic learning experiences for high school students. We 
have several existing programs that have the capability for doing this, 
such as the National STEM Digital Library and Innovative Technology 
Experiences for Students and Teachers.
    Section 7030 and Section 10 A, Robert NOYCE Teacher Scholarship 
Program and Teaching Fellowships and Master Teaching Fellowships: NSF 
will establish a pilot program that would enable it to probe the 
features of the fellowship requirements, connect these features with 
ones undertaken through our other fellowship programs, determine what 
would be needed to implement the components of the new effort, and 
establish the pathways through which such programs advance K-12 STEM 
learning.
    Section 7031, Encouraging Participation: This provision is an 
expansion of existing efforts (e.g., in the PAESMEM Program) and 
reflects NSF's strong interest in community colleges, STEM education, 
and the STEM workforce. We will seek to devise highly effective 
strategies for carrying out increased mentoring within the context of 
our community college and workforce programs. NSF has already 
negotiated the metrics that we will use through the ACC process.
    Regarding the FY 2008 appropriations, NSF estimates that 1,000 
fewer research grants will be awarded, impacting an estimated 3,000 
senior researchers, postdoctorates, graduate students, and 
undergraduates.

Q2.  The FY 2009 request provides for a 16 percent increase for the 
Research and Related Activities overall and about 20 percent increases 
for the directorates that support research in the physical sciences and 
engineering. In light of this, could you please provide specifics on 
the proposed allocation for the National Nanotechnology Initiative of 
only two percent growth, which is below inflation and represents an 
actual decrease in level of activity? This lack of budget priority is 
puzzling since the NNI is a major cross agency research initiative in 
an area that is generally regarded as critical to the future 
technological strength and innovative capacity of the Nation.

A2. NSF has an annual process of establishing its priorities on 
nanoscale science and engineering that includes NNI Working Group 
proposals with input from periodical workshops and meetings with the 
communities, coordination with other agencies through the National 
Nanotechnology Initiative, and consideration of the international and 
industrial contexts.
    NSF efforts within the NNI over the years have been directed at 
establishing and fostering the growth of the nanotechnology community. 
As this community blossomed, nanotechnology research has been 
transitioned and is now embedded and pervasive throughout NSF core 
programs. As a result of these efforts, other federal agencies with a 
more applied research mission are now in position to partner with 
industry to further the basic research knowledge gained from prior 
support. NSF will continue to support fundamental research, 
infrastructure, and education in all areas of nanoscale science.

Q3.  In your opinion, how essential is long-term, stable, and 
relatively predictable funding to the NSF's research activities?

A3. Long-term, stable, and relatively predictable funding enhances 
NSF's ability to engage in long range planning and provide accurate 
information to the scientific and engineering community on anticipated 
funding levels for multi-year efforts. NSF's tasks are to keep 
scientists and engineers focused on the furthest frontier, to recognize 
and nurture emerging fields, to prepare the next generation of 
scientific talent and leaders, to provide world-class facilities to 
advance research, and to ensure that all Americans gain an 
understanding of what science and technology have to offer. The 
Nation's ability to innovate and compete, its strength and versatility, 
depend in part on continued success in achieving these goals. NSF's 
ability to meet these goals is highly dependent on adequate funding 
levels that can be used as a basis for developing program plans and 
priorities. Working at the leading-edge of the U.S. science and 
engineering enterprise, NSF provides nearly half of the federal 
investment in non-medical basic research at academic institutions and 
supports science and mathematics education at all levels. The nature of 
NSF's programming gives the agency an invaluable level of flexibility 
and agility. NSF has proven time and again that it can respond 
decisively and proactively to emerging opportunities and challenges.

Q4.  The Administration cited the recently completed Academic 
Competitiveness Council (ACC) assessment of the effectiveness of 
Federal STEM education programs as a part of its justification for 
budget decisions for NSF's Education and Human Resources Directorate. 
The ACC report, which was chaired by Education Secretary Spellings, 
found that a number of NSF programs did not have adequate evaluations. 
Would you agree with the report's conclusions that NSF's education 
programs are not properly evaluated? lf so, how do you plan to address 
this?

A4. The ACC recommends that ``Funding for federal STEM education 
programs designed to improve STEM education outcomes should not 
increase unless a plan for rigorous, independent evaluation is in 
place, appropriate to the types of activities funded.'' However, this 
does not mean that a specific form of evaluation is required. Program 
funding relies on several factors. Importantly, evaluations should 
address questions of program implementation and impact, and must be 
calibrated to match the developmental changes that occur as programs 
become established. In 1992, performance monitoring and evaluation of 
education programs in EHR became a requirement. EHR has conducted 
numerous program evaluations since that time. Since 2005, EHR has 
required that every proposed project include an evaluation plan at the 
time of proposal submission. Evaluation plans and appropriately 
rigorous designs are developed for all EHR programs as they evolve.
                   Answers to Post-Hearing Questions
Responses by Steven C. Beering, Chairman, National Science Board

Questions submitted by Chairman Brian Baird

Q1.  You mentioned in your testimony that the Board continues to 
consider appropriate mechanisms for support of graduate students. A 
report from the National Academies in the mid 1990s suggested the need 
for an increase in numbers of fellowships and traineeships relative to 
graduate research assistantships. The 2003 NSB report, The Science and 
Engineering Workforce, indicated the Board would take no action due to 
``inadequate data to compel a recommendation of a major shift in 
funding mode among fellowships, research assistantships, teaching 
assistantships, and traineeships. . ..''

     Is the Board still gathering information on graduate student 
support mechanisms and do you expect the Board's past position to be 
revised in the near-term?

A1. We do not plan to revisit this position in the near-term. However, 
we continue to stay informed about all NSF programs to support graduate 
education and assessments of their effectiveness through the Board's 
Committee on Education and Human Resources and in discussions of the 
NSF budget.

Q2.  What is the rationale for the FY09 budget proposal that increases 
the Graduate Research Fellowships program by 32 percent while holding 
the IGERT traineeship program at flat funding?

A2. The GRF and the Integrated Graduate Education and Research 
Traineeship (IGERT) programs are very different with respect to purpose 
and established effectiveness. The Graduate Research Fellowship program 
(GRF) is NSF's traditional fellowship support program for graduate 
students and has proven its effectiveness. According to the recent 
Committee of Visitor's report (2003) GRF ``has been a mainstay of 
technical workforce development in science, engineering, technology and 
mathematics for many years. . .. The program is old enough now that 
former fellowship holders can be found in many prominent places within 
the public and private sectors. . .all stated goals were being met. . 
.. Clearly, the students who are recipients of these awards end up 
making significant contributions to the `scientific' workforce and as 
`global' representatives of our scientifically trained citizenry 
(Committee of Visitors Report, 2003). In FY 2009, 3,075 students would 
be supported under the proposed budget.
    The IGERT program was initiated in 1998. IGERT remains 
experimental, with results of extensive evaluations of the program 
effectiveness still under review. Both the GRF and IGERT programs have 
experienced increases in this decade, but clearly the long-term, proven 
effectiveness of the GRF in achieving national goals for the science 
and engineering workforce merits sustaining and expanding support to 
this program. The IGERT program is focused on institutional innovation 
in graduate education, and grants are to institutions rather than 
directly to excellent students. The IGERT program, with funding for 
1,425 students under the 2009 budget, would support nearly half as many 
students as would be supported under the well established GRF program. 
This level of funding seems appropriate.

Questions submitted by Representative Daniel Lipinski

Q1.  How does the NSF plan to implement recently authorized America 
COMPETES programs in light of recent budgetary shortfalls? Can you 
point to tangible evidence, such as a projected decrease in the amount 
of NSF supported researchers that is a direct result of the recent 
budget shortfalls?

Q2.  The FY 2009 request provides for a 16 percent increase for the 
Research and Related Activities overall and about 20 percent increases 
for the directorates that support research in the physical sciences and 
engineering. In light of this, could you please provide specifics on 
the proposed allocation for the National Nanotechnology Initiative of 
only two percent growth, which is below inflation and represents an 
actual decrease in level of activity? This lack of budget priority is 
puzzling since the NNI is a major cross agency research initiative in 
an area that is generally regarded as critical to the future 
technological strength and innovative capacity of the Nation.

A1 and A2. I refer you to the responses of the National Science 
Foundation Director with regard to the implementation of the America 
COMPETES Act in NSF programs and the specifics of the National 
Nanotechnology Initiative as implemented in NSF.

Q3.  At present approximately 12 percent of graduate student support 
from NSF comes from fellowships and traineeships and the remainder from 
graduate research assistantships, which are tied to specific research 
grants. Several years ago, a study by the National Academy of Sciences 
suggested that the balance for such support should be relatively 
greater for fellowships and traineeships versus assistantships in order 
to give a student greater freedom in selecting an area of 
specialization. Has the Board revisited this policy and is the Board 
satisfied with the current balance among these support mechanisms for 
graduate education?

A3. The Foundation and the Board continually review evidence of the 
most advantageous approaches to support for graduate and postdoctoral 
education toward achieving federal goals for the science and 
engineering enterprise. In its 1996 Report of the Task Force on 
Graduate and Postdoctoral Education, the Board found insufficient 
evidence to justify a change in the balance in its funding modes for 
graduate education at that time. Moreover, though the 1998 report of 
the National Research Council, Trends in the Early Careers of Life 
Scientists, urged, under Recommendation 3, that ``All federal agencies 
that support life-science education and research. . .invest in training 
grants and individual graduate fellowships as preferable to research 
grants to support Ph.D. education,'' it acknowledged that ``There is no 
clear evidence that career outcomes of persons supported by training 
grants are superior to those of persons supported by research grants.''
    The Board has focused on improving outcomes, rather than balance of 
modes of support, in its more recent studies. Its 2003 report, The 
Science and Engineering Workforce--Realizing America's Potential, 
recommends encouraging institutions to ``promote a wider range of 
educational options responsive to national skill needs.'' It goes on to 
recommend a realistic level of financial support for graduate and 
postdoctoral students (stipends on NSF fellowships and traineeships 
have since been raised to a $30,000 annually). In sum, the Board has 
not specifically focused on balance of support modes since the 1996 
report, in favor of a broader focus on desired outcomes and the best 
approaches to achieve them, which may include as a tool, as 
appropriate, the modes of support for graduate education in science and 
engineering.

                                   

</pre></body></html>
